Report No. D-2007-066    March 9, 2007




Navy Acquisition Executive's Management
Oversight and Procurement Authority for
 Acquisition Category I and II Programs
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ACAT                  Acquisition Category
AoA                   Analysis of Alternatives
ASN(RD&A)             Assistant Secretary of the Navy (Research, Development, and
                         Acquisition)
ASW                   Antisubmarine Warfare
CLIP                  Common Link Integration Processing
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
IG                    Inspector General
LRIP                  Low-Rate Initial Production
NAE                   Navy Acquisition Executive
ORD                   Operational Requirements Document
OSCAR                 Open Systems Core Avionics Requirements
PEO                   Program Executive Officer
SECNAV                Secretary of the Navy
SEWIP                 Surface Electronic Warfare Improvement Program
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
               Department of Defense Office of Inspector General
                                                                          March 9, 2007

Report No. D-2007-066
  (Project No. D2005-D000AS-0230.000)


   Navy Acquisition Executive’s Management Oversight and Procurement
          Authority for Acquisition Category I and II Programs



                                Executive Summary

Who Should Read This Report and Why? Civil service and military personnel
involved in the management oversight and procurement authority for Navy acquisition
programs should read this report. It discusses program management oversight issues that
the Navy should address to improve how acquisition officials manage and acquire
weapon systems.

Background. This is the third in a series of reports that discusses the Service
Acquisition Executives’ management oversight and procurement authority for
Acquisition Category IC and II programs. This report discusses the management
oversight and procurement authority within the Navy. Two other reports discussed the
management oversight and procurement authority within the Army and Air Force. We
initiated this audit due to congressional and DoD interest in whether milestone decision
authorities and procurement officials for the Services were complying with statutory and
regulatory requirements in the DoD acquisition process. We evaluated the adequacy of
the Navy Acquisition Executive (NAE) management oversight and procurement authority
by reviewing 13 Acquisition Category IC and II programs with a total estimated research
and development cost of $6.170 billion and a total estimated procurement cost of
$28.244 billion in FY 2006 dollars. The Assistant Secretary of the Navy (Research,
Development, and Acquisition) is the milestone decision authority for the development
and procurement of Navy Acquisition Category IC and II programs. The Navy uses a
database called Dashboard to help manage the Navy programs.

Results. In general, the Navy implemented the management controls in the DoD 5000
series of documents and the Federal Acquisition Regulation. We did not find
management control problems like those identified in our earlier reviews of the Boeing
KC-767A tanker aircraft and the C-130J aircraft. We also determined that the NAE
internal controls were adequate. We identified no material internal control weaknesses in
the management oversight and procurement authority for Acquisition Category IC and II
programs. Specifically, we found no evidence that Navy milestone decision authorities
used their positions to inappropriately influence the results of contractor selection and
negotiations. In addition, the NAE oversight of Acquisition Category IC and II programs
was generally adequate. However, management oversight of areas related to the
documentation requirements in support of program milestone decision reviews, test and
evaluation, and the Dashboard reporting system could be improved.
Since FY 2000, the NAE approved 10 of the 13 programs we reviewed for entry into the
next phase of the acquisition process before obtaining all required or properly approved
acquisition documentation. Additionally, the NAE did not require 3 of the 13 programs
to have approved and updated acquisition program baseline documentation between
milestone decision reviews when significant changes affected the programs. As a result,
the NAE did not have all the necessary information to make fully informed milestone
decisions and act appropriately between milestone decision reviews. Therefore, we
recommend that the Assistant Secretary of the Navy (Research, Development, and
Acquisition) comply with DoD and Secretary of the Navy policy when reviewing
programs for milestone reviews; maintain decision documents as a result of milestone
reviews in the acquisition decision memorandum; track deviation reports in the Navy
Dashboard database; and require program managers to maintain approved documentation
for the life of the acquisition program (finding A).

The NAE approved 8 of the 13 programs for either low-rate initial production or full-rate
production. The NAE approved three programs for low-rate initial production before
program officials conducted an operational assessment. The NAE approved one program
for low-rate initial production even though operational assessment determined the system
was immature and critical operational issues could not be evaluated. Further, on one
program, the Navy purchased all systems prior to completing operational testing. As a
result, the NAE did not determine whether programs were operationally effective and
suitable prior to approving production quantities costing about $25 billion. This could
result in additional development work and operational testing, cost overruns, and
schedule delays.

We recommend that the NAE acquisition decision memorandums include justification for
exceeding the 10-percent low-rate initial production guideline, justification for approving
low-rate initial production or full-rate production when exit criteria are not met, a
statement that previously approved exit criteria have been deleted or revised, and an
explanation for the change to the exit criteria. In addition, the Assistant Secretary of the
Navy (Research, Development, and Acquisition) should formally document the rationale
for allowing programs to proceed through milestone decision reviews without the
required testing and documentation (finding B).

Program managers for 2 of the 13 Navy programs did not update Dashboard information
on a quarterly basis. Additionally, program managers for evolutionary acquisitions could
not report each increment separately in Dashboard. This practice will result in a loss of
historical data for past increments. Navy officials will not be able to distinguish between
important milestone decision dates and data for each increment. This condition could
result in Navy officials being unable to interpret data in the Dashboard reports.
Therefore, we recommend that the Assistant Secretary of the Navy (Research,
Development, and Acquisition) issue guidance mandating the use and quarterly update of
Dashboard and modify Dashboard to distinguish increments for evolutionary acquisition
programs (finding C).

See the Findings section for details on the audit results and recommendations.

Management Comments and Audit Response. We received comments from the
Deputy Assistant Secretary of the Navy (Management and Budget), who responded on
behalf of the Assistant Secretary of the Navy (Research, Development, and Acquisition).
He generally concurred with our recommendations on preparing and updating program
documentation. However, he nonconcurred with our recommendation that the AV-8B


                                             ii
Harrier II OSCAR program manager develop and prepare a tailored information support
plan. The Deputy Assistant Secretary of the Navy (Management and Budget) stated that
completing an information support plan when the program is 58-percent delivered would
be an inefficient use of available resources with limited or no benefit to the program.

In response to management comments, we added an additional recommendation and
deleted one recommendation. The added recommendation is for the Navy to update the
Navy Acquisition Guidebook to conform to the requirements in DoD Instruction 5000.2.
In addition, the Deputy Assistant Secretary of the Navy (Management and Budget)
comments were not responsive on two of the seven recommendations on operational
testing in the milestone decision process. He nonconcurred with the recommendation to
approve a program office’s request to exceed the 10-percent low-rate initial production
limitation only with the Commander, Operational Test and Evaluation Force
recommendation that the system is ready to proceed to low-rate initial production. In
response to management comments, we revised the recommendation to state that the
Assistant Secretary of the Navy should assess the cost and benefits of a break in
production versus continuing annual buys when the program office expects to exceed the
low-rate initial production quantity approved at Milestone B. Additionally, management
comments were not responsive to the recommendation requiring program offices to
schedule and complete an operational assessment prior to the low-rate initial production
milestone decision in accordance with DoD Instruction 5000.2.

Based on management comments, we also revised the recommendation regarding
documenting in the acquisition decision memorandum when quantities exceed the
10-percent low-rate initial product guideline.

The Deputy Assistant Secretary of the Navy (Management and Budget) concurred with
both of our recommendations on the Dashboard database. He stated that official
Dashboard guidance will be issued and that Dashboard will be modified to distinguish
different increments for evolutionary programs. The comments were responsive to the
recommendations.

We request that the Assistant Secretary of the Navy (Research, Development, and
Acquisition) provide comments on Recommendations A.3., B.1., B.2., and B.4. by
April 9, 2007. See Appendix H for a discussion of management comments on the
findings. Also, see the Findings section of the report for a discussion of management
comments on the recommendations and the Management Comments section of the report
for the complete text of the comments.




                                           iii
Table of Contents

Executive Summary                                                           i

Background                                                                  1

Objective                                                                   2

Review of Internal Controls                                                 2

Findings
     A. Preparing and Updating Program Documentation                        3
     B. Operational Testing in the Milestone Decision Process              23
     C. Reporting in Dashboard                                             35

Appendixes
     A.  Scope and Methodology                                             40
     B. Prior Coverage                                                     43
     C. Glossary                                                           45
     D.  Comparison of Conditions Identified on Audits of Boeing KC-767A
           and C-130J Aircraft                                             50
     E. Overview of the 13 Navy Programs                                   57
     F. Description of the 13 Navy Programs                                58
     G. Other Matters of Interest                                          61
     H. Management Comments on Findings and Audit Response                 63
     I. Report Distribution                                                70

Management Comments
     Department of the Navy                                                73
Background
    This report is the third in a series of audit reports that discusses the Service
    Acquisition Executives’ management oversight and procurement authority for
    Acquisition Category (ACAT) I and II programs. This report discusses Navy’s
    management oversight and procurement authority. Two other reports discussed
    the Army and Air Force management oversight and procurement authority. We
    initiated this audit because of congressional and DoD interest in whether Service
    milestone decision authorities and procurement officials were complying with the
    statutory and regulatory requirements for acquisitions. Previous audits of the
    Boeing KC-767A tanker aircraft and the C-130J aircraft found that the program
    offices failed to implement management controls in accordance with the policy
    and guidance in the DoD 5000 series of documents and in the Federal Acquisition
    Regulation (FAR). See Appendix D for a comparison of conditions identified
    during three Boeing KC-767A and C-130J audits with the 13 Navy programs
    reviewed during this audit.

    The DoD 5000 series of documents provides policy and guidance to the
    DoD Components to manage their acquisition programs. The Defense
    Acquisition Executive is the Under Secretary of Defense for Acquisition,
    Technology, and Logistics (USD[AT&L]) who supervises the Defense
    Acquisition System. The USD(AT&L) designates programs as either ACAT ID
    or ACAT IC, depending on the required level of oversight. The USD(AT&L) is
    the milestone decision authority for ACAT ID programs. The head of the DoD
    Component or, if delegated, the DoD Component Acquisition Executive is the
    milestone decision authority for ACAT IC programs.

    Secretary of the Navy (SECNAV) Instruction 5000.2C, “Implementation and
    Operation of the Defense Acquisition System and the Joint Capabilities
    Integration and Development System,” November 19, 2004, implements the
    DoD 5000 series of documents. SECNAV Instruction 5000.2C states that the
    Assistant Secretary of the Navy (Research, Development, and Acquisition)
    (ASN[RD&A]) is the Department of the Navy Component Acquisition Executive.
    The ASN(RD&A), also known as the Navy Acquisition Executive (NAE), is the
    milestone decision authority for ACAT IC and II programs and may delegate this
    responsibility as authorized by law and regulations. The NAE designates Program
    Executive Officers (PEO) for executive management of assigned acquisition
    programs and assigns program managers to execute the acquisition programs in
    accordance with approved cost, schedule, and performance thresholds set in the
    acquisition program baseline. The Secretary of the Navy, ASN(RD&A), Chief of
    Naval Operations, Systems Commands, PEOs, and program managers use an
    automated tool called Dashboard to manage the various ACAT programs with
    consistent data throughout the chain of command.

    ACAT I (IC and ID) programs are major Defense acquisition programs with an
    estimated total expense for research, development, test, and evaluation of more
    than $365 million in FY 2000 constant dollars or, for procurement, of more than
    $2.190 billion in FY 2000 constant dollars. ACAT II programs are major systems
    with an estimated total expense for research, development, test, and evaluation of
    less than $365 million but more than $140 million, or for procurement, of less
    than $2.190 billion but more than $660 million in FY 2000 constant dollars.

                                        1
     We evaluated the adequacy of the NAE management oversight and procurement
     authority by reviewing 13 ACAT IC and II programs with a total estimated
     research and development cost of $6.170 billion and a total estimated
     procurement cost of $28.244 billion in FY 2006 dollars. Appendix E shows an
     overview of the programs reviewed including the individual funding for each of
     the programs. Of the 13 programs selected for review, 5 programs were in the
     system development and demonstration phase, and 8 programs were in the
     production phase of the acquisition process. In addition, 8 of the 13 programs
     were listed on the Director, Operational Test and Evaluation Oversight list.
     Appendix C contains a glossary of technical terms used in this report.


Objective
     The overall audit objective was to evaluate whether the NAE management
     oversight and procurement authority for ACAT I and II programs was adequate.
     Specifically, the audit evaluated the adequacy of the program management and
     procurement decision process used by the NAE. We also reviewed management
     controls as they related to the audit objective. See Appendix A for a discussion of
     the scope and methodology and Appendix B for prior audit coverage related to the
     audit objectives. See Appendix F for a description of the 13 Navy acquisition
     programs. See Appendix G for a discussion of other matters of interest
     concerning Acquisition Coordination Teams and documentation of the contract
     negotiations.


Review of Internal Controls
     The NAE internal controls over the management and procurement of ACAT IC
     and II programs were adequate.




                                          2
            A. Preparing and Updating Program
               Documentation
            Since FY 2000, the NAE approved 10 of the 13 programs we reviewed for
            entry into the next phase of the acquisition process before obtaining all
            required or properly approved acquisition documentation. The NAE did
            not require 3 of the 13 programs to have approved and updated acquisition
            program baseline documentation between milestone decision reviews
            when significant changes affected the programs. These conditions
            occurred because the NAE did not comply with DoD and Navy acquisition
            policy when reviewing and approving programs for a milestone decision
            review and because the NAE was not tracking program deviation reports
            in the Navy Dashboard database. In addition, it was unclear why the NAE
            allowed programs to proceed through milestones without required or
            properly approved acquisition documentation. No formal tailored
            documentation agreements existed and documentation decisions
            associated with each milestone review were not being formally
            documented in document waivers, tailoring agreements, or acquisition
            decision memorandums. As a result, the NAE did not have all the
            necessary information required to make fully informed milestone
            decisions and to take appropriate management actions between milestone
            decision reviews.

DoD and Navy Policy Applicable to the Acquisition Process
     DoD Instruction 5000.2, “Operation of the Defense Acquisition System,”
     May 12, 2003, and SECNAV Instruction 5000.2C establish requirements for
     preparing, updating, and obtaining required program documentation. Additional
     policy has been issued for program documentation but has not yet been
     incorporated in DoD Instruction 5000.2 or SECNAV Instruction 5000.2C. The
     USD(AT&L) memorandum, “Policy for Systems Engineering in DoD,” issued
     February 20, 2004, establishes the requirements for developing systems
     engineering plans. The Defense Acquisition Guidebook provides the acquisition
     community with a guide to best practices for Defense acquisitions. Two
     additional SECNAV Instructions provide guidance on Navy policy, processes,
     and acquisition responsibilities associated with life-cycle management.

     DoD Instruction. DoD Instruction 5000.2 specifies program documents that
     program managers must provide at program milestone reviews. This guidance
     establishes a simplified and flexible management framework for translating
     approved mission needs and technology opportunities into stable, affordable, and
     well-managed acquisition programs that include weapon systems and automated
     information systems.

     USD(AT&L) memorandum, “Policy for Systems Engineering in DoD,”
     February 20, 2004, requires “all programs responding to a capabilities or
     requirements document, regardless of acquisition category, to apply a robust
     systems engineering approach that balances total system performance and total


                                         3
    ownership costs within the family-of-systems, systems-of-systems context.” The
    memorandum requires program managers “to develop a systems engineering plan
    for NAE approval in conjunction with each milestone review.” The systems
    engineering plan should also be integrated with the acquisition strategy. The
    systems engineering plan must describe the program’s overall approach, including
    processes, resources, metrics, and applicable performance incentives. It must also
    state the timing, conduct, and success criteria of technical reviews.

    Navy Instructions. SECNAV Instruction 5000.2C identifies milestone
    documentation requirements as the key management control for acquisition
    programs and the milestone decision review process as the evaluation of that
    control.

    SECNAV Instruction 5400.15B, “Department of the Navy Research,
    Development, and Acquisition, and Associated Life-Cycle Management
    Responsibilities,” December, 23, 2005, describes the relationships between the
    ASN(RD&A), PEOs, and the Chief of Naval Operations and associated life-cycle
    management responsibilities. It also documents previously established duties and
    responsibilities of the ASN(RD&A).

    SECNAV Instruction 5420.188F, “Acquisition Category Program Decision
    Process,” November 2, 2005, provides policy and process for making Navy
    ACAT program decisions and outlines managers’ responsibilities for the
    oversight process. See the Management Oversight section for additional
    oversight responsibilities.

    Defense Acquisition Guidebook. The Defense Acquisition Guidebook provides
    the acquisition community with best practices for Defense acquisitions. The
    Guidebook is a practical reference that supports acquisition decision makers in
    effectively fulfilling their management duties. The content includes general
    policies and procedures that complement the statutory and regulatory
    requirements outlined in the DoD 5000 series of guidance. It also includes
    instruction on program management responsibilities, developing acquisition goals
    and strategies, and preparing acquisition documentation.

Management Oversight
    The management oversight responsibilities for the Navy program decision process
    are set forth in SECNAV Instruction 5000.2C, SECNAV Instruction 5400.15B,
    and SECNAV Instruction 5420.188F. The levels of management oversight and
    responsibilities are defined below.

    Milestone Decision Authority. SECNAV Instruction 5000.2C and SECNAV
    Instruction 5420.188F designates the ASN(RD&A) as the NAE. The NAE is
    responsible for all research, development, and acquisition conducted for the
    Department of the Navy. The NAE serves as the milestone decision authority for
    ACAT IC and II programs. The milestone decision authority is required to




                                        4
           conduct milestone reviews for all assigned Department of the Navy ACAT
           programs and holds a program decision meeting before milestone decisions. The
           program decision meeting is the NAE milestone review forum. The primary
           duties of the NAE include reviewing and approving all appropriate milestone
           documentation, reviewing the program decision briefing, chairing the program
           decision meeting, and signing the acquisition decision memorandum.

           Deputy Assistant Secretaries of the Navy. The Deputy Assistant Secretaries of
           the Navy for ACAT IC and II programs are responsible for cochairing or
           appointing an action officer 1 to cochair the Acquisition Coordination Team. The
           cochair ensures that milestone documentation is complete and has been submitted
           to appropriate review and approval authorities prior to scheduling a program
           decision meeting, and prepares and obtains a signature on the acquisition decision
           memorandum. As of October 2006, 10 Deputy Assistant Secretaries of the Navy
           oversee specific functional areas within the Office of the ASN(RD&A). Each
           acquisition program is assigned a Deputy Assistant Secretary of the Navy based
           on the program type.

           Program Executive Officers. PEOs exercise the authority of the NAE to
           directly supervise the management of assigned programs, maintaining oversight
           of cost, schedule, and performance. PEOs are responsible for all aspects of life-
           cycle management for their assigned programs. PEOs report directly to the NAE
           for all matters pertaining to acquisition. The PEO also establishes the Acquisition
           Coordination Team, ensures all program issues have been addressed, chairs the
           acquisition program briefings, and notifies the Deputy Assistant Secretary of the
           Navy to schedule the program’s milestone review.

           Program Managers. Program managers cochair the Acquisition Coordination
           Team, develop an overall approach to conduct the milestone review, prepare and
           present the program decision briefing, and ensure that program officials obtain
           appropriate reviews and approvals for acquisition documentation. Before
           program initiation and before the NAE approves subsequent milestone reviews,
           program managers must provide mandatory program documents for the milestone
           decision authority to review.


Submitting Required Program Documentation at Milestone
  Decision Reviews
           We reviewed 13 Navy acquisition programs that had milestone reviews held with
           the NAE for entry into the system development and demonstration phase and
           production and deployment phase of the acquisition process. The NAE approved
           10 of the 13 programs for entry into the next acquisition phase even though
           required acquisition documentation was not provided or was not properly
           approved at the time. The Deputy Assistant Secretary of the Navy assigned to the
           program prepares the acquisition decision memorandum and the NAE approves it.
           It is the formal approval of the program to enter the next acquisition phase. The
1
    Action officers are assigned to a Deputy Assistant Secretary of the Navy and work closely with program
    management to ensure that milestone documentation requirements are met.


                                                       5
        following table shows whether the program managers for the 13 Navy programs
        could provide support that they developed 8 mandatory documents and had each
        document properly approved according to the guidance.

                            Key Documentation of the 13 Navy Programs
                                                                                   ORD,
                                                Acquisition    C4ISP     MNS      CDD,
Programs                        AoA     APB      Strategy      or ISP   or ICD    or CPD      SEP        TEMP
Advanced Arresting Gear         Yes     Yes        Yes         N/A1      Yes        Yes       Yes         Yes
Advanced Deployable
System                           Yes     Yes        Yes         Yes       Yes       Yes       Yes        Yes
Active Electronically
  Scanned Array                  No      Yes        No          Yes      N/A2       Yes       Yes        Yes
Airborne Laser Mine
  Detection System               Yes     Yes        Yes         Yes       Yes       Yes       No         Yes
AN/AQS-20A                       Yes     Yes        Yes         Yes       Yes       Yes      Yes         Yes
AN/SPY-1D(V)                     No      Yes        No          N/A       Yes       Yes      N/A3        Yes
Common Link Integration
  Processing                     No      Yes        Yes         Yes       Yes       Yes      Yes         Yes
MH-60R                           No      Yes        Yes         Yes       No4       Yes      Yes         No
Mode 5                           No      Yes        No          No        Yes       Yes      N/A         Yes
Navy Multiband Terminal          Yes     No         Yes         Yes       No        Yes      N/A3        No
Open Systems Core Avionics
  Requirements                   Yes     Yes        Yes         No        No         No      N/A3        Yes
Surface Electronic Warfare
  Improvement Program            Yes     Yes        No         N/A5       Yes       Yes       No         Yes
Tactical Tomahawk                No      Yes        Yes        Yes        Yes       Yes      N/A3        Yes

AoA                 Analysis of Alternatives
APB                 Acquisition Program Baseline
CDD                 Capabilities Development Document
CPD                 Capabilities Production Document
C4ISP               Command, Control, Communications, Computers, and Intelligence Support Plan
ISP                 Information Support Plan
ICD                  Initial Capabilities Document
MNS                 Mission Needs Statement
ORD                 Operational Requirements Document
SEP                 Systems Engineering Plan
TEMP                Test and Evaluation Master Plan
1
  Program had an approved ISP waiver.
2
  Program was not required to develop a mission needs statement.
3
  Not required to develop an SEP before February 20, 2004.
4
  Program used the ORD to show mission needs.
5
  Assistant Secretary of Defense (Networks & Information Integration) deferred ISP requirement to next
   milestone.




                                                   6
           Analysis of Alternatives. An analysis of alternatives (AoA) is the evaluation of
           the operational effectiveness, operational suitability, and estimated costs of
           alternative systems to meet a mission capability. The analysis assesses the
           advantages and disadvantages of alternative systems being considered to satisfy a
           validated need, including the sensitivity of each alternative to possible changes in
           key assumptions and variables. SECNAV Instruction 5000.2C requires an AoA
           be developed for both ACAT IC and II programs prior to entry into the DoD
           acquisition process. According to the Office of the Secretary of Defense Cost
           Analysis Improvement Group’s “Operating and Support Cost-Estimating Guide,”
           May 1, 1992, a cost and operational effectiveness analysis should be conducted to
           assess the operational effectiveness and suitability of proposed concepts at
           Milestones I and II. 2 The cost and operational effectiveness analysis considered
           the cost-effectiveness of the recommended approach and of alternative
           approaches. Because some of the programs were initiated when different
           guidance was in effect, we accepted a cost and operational effectiveness analysis
           in lieu of an AoA.

           Of the 13 programs chosen for review, 9 had an AoA or a cost and operational
           effectiveness analysis prepared. Seven of the nine documents were properly
           approved by NAE or did not require NAE approval at the time they were created;
           one of the nine documents did not have the signature page; and one of the nine
           was approved by the PEO rather than the NAE.

           Program officials for the following four programs were unable to provide an AoA
           or cost and operational effectiveness analysis:

                •   MH-60R Multi-Mission Helicopter,

                •   Tactical Tomahawk,

                •   AN/SPY-1D(V) Radar Upgrade, and

                •   Mark XIIA Mode 5 Identification Friend or Foe Upgrade.

           As a result, we could not verify that the AoAs or cost and operational
           effectiveness analyses existed for those four programs.

                  AN/APG-79 Active Electronically Scanned Array Radar System. An
           AoA was provided for the AN/APG-79 Active Electronically Scanned Array
           Radar System; however, the signature page could not be provided. As a result,
           we could not verify that the AoA had been approved by the NAE.

                  Common Link Integration Processing. SECNAV Instruction 5000.2C
           requires the AoA be approved by the NAE, the Chief of Naval Operations, or the

2
    Milestone I is a legacy milestone phase in which the program, if approved, would have been established
    as a new acquisition program and entered into the program definition and risk reduction phase of the
    legacy acquisition life cycle. It is the equivalent of Milestone A under the current acquisition life cycle.
    Milestone II is a legacy milestone phase in which the program, if approved, would have been approved to
    enter the engineering and manufacturing development phase of the legacy acquisition life cycle. It is the
    equivalent of Milestone B under the current acquisition life cycle. This milestone did not approve low-
    rate initial production for the program, LRIP was approved later in the same phase as its own decision.


                                                        7
           Commandant of the Marine Corps, but makes no mention of the PEO being
           approved to sign the AoA. The AoA was approved by the PEO instead of the
           NAE as required by the SECNAV Instruction 5000.2C. According to the
           program staff, the NAE advised them that the AoA could be approved by the
           PEO, but they could not provide supporting documentation.

           Acquisition Program Baseline. The NAE approved acquisition program
           baselines for 12 of the 13 programs. The acquisition program baseline is prepared
           by the program manager and approved by the NAE prior to milestone approval.
           The acquisition program baseline prescribes the key cost, schedule, and
           performance constraints that must be achieved by the program before the next
           milestone decision review in the acquisition process. The constraints are
           documented in the objective value and threshold value for each parameter. The
           program manager manages the program to the objective value of each parameter.
           Thresholds represent the acceptable limits to the parameter values that still
           provide the needed capability. The failure to attain program thresholds may
           degrade system performance, delay the program, or make the program too costly.
           Program managers are responsible for executing programs in accordance with
           approved cost, schedule, and performance thresholds set in the acquisition
           program baseline.

                   Navy Advanced Extremely High Frequency Multiband Terminal. The
           Navy Advanced Extremely High Frequency Multiband Terminal program’s
           acquisition program baseline was not approved until 6 weeks after its acquisition
           decision memorandum for Milestone B. 3 The NAE decided to withhold approval
           of the acquisition program baseline until contract award, which had been delayed
           to adjust contractor incentives and was dependent upon the Milestone B decision.
           The acquisition program baseline dates would be affected by the delay in contract
           award and the NAE decided to defer final signature until firm dates could be
           determined and the acquisition program baseline updated. The NAE approved the
           acquisition decision memorandum for Milestone B on October 21, 2003. The
           contracts were awarded on October 29, 2003. The acquisition program baseline
           was then updated to reflect the new dates and the NAE approved it on
           December 3, 2003. Regardless of the change in the contract, the acquisition
           program baseline should still have been approved before the acquisition decision
           memorandum as required by DoD Instruction 5000.2. The NAE would be unable
           to assess the cost, schedule, and performance parameters of the program without
           an accurately defined acquisition program baseline.

           Acquisition Strategies. The NAE approved four acquisition decision
           memorandums even though two programs did not have a properly approved
           acquisition strategy and two programs did not have a complete acquisition
           strategy. An acquisition strategy is a business and technical management
           approach designed to achieve program objectives within the imposed resource
           constraints. It is the framework for planning, directing, contracting for, and
           managing a program. It provides a master schedule for research, development,
           test, production, fielding, modification, postproduction management, and other

3
    At Milestone B, a recommendation is made and approval sought for the program to leave the technology
    development phase and continue to the system development and demonstration phase of the acquisition
    lifecycle.


                                                     8
           activities essential for program success. The acquisition strategy is required by
           DoD Instruction 5000.2 for each program and is prepared by the program
           manager and approved by the NAE. If an acquisition strategy was not ready for
           approval at the time the acquisition decision memorandum was approved, the
           program may not have been ready to proceed to the next acquisition phase and the
           NAE would be unable to determine the program’s complete technical and
           management approach.

                   AN/APG-79 Active Electronically Scanned Array Radar System. The
           NAE approved the AN/APG-79 Active Electronically Scanned Array Radar
           System’s acquisition strategy 22 days after approving the program’s acquisition
           decision memorandum for Milestone C. 4 During the Milestone C meeting, the
           ASN(RD&A) made changes to the program involving a fourth LRIP. As a result
           of these changes, the acquisition strategy needed to be revised and resubmitted to
           ASN(RD&A) for signature, leading to the 22-day delay.

                   AN/SPY-1D(V) Radar Upgrade. The AN/SPY-1D(V) system’s program
           manager did not develop an acquisition strategy; instead program officials
           provided an acquisition plan for the program. We reviewed the plan to determine
           whether it contained the same information required by DoD Instruction 5000.2 for
           acquisition strategy. We determined that the acquisition plan contained the
           majority of the information required of the acquisition strategy; however, the
           acquisition plan does not contain justification of low-rate initial production
           quantities exceeding 10 percent and was not approved by the NAE.

                   Mark XIIA Mode 5 Identification Friend or Foe Upgrade. The
           Mode 5 acquisition strategy was approved 6 months after the NAE approved the
           acquisition decision memorandum for Milestone B. The Deputy Assistant
           Secretary of the Navy action officer stated that during the milestone decision
           briefing, the NAE requested several changes be made to the program’s acquisition
           strategy before he would approve it. The NAE approved proceeding to the next
           acquisition phase because he did not want to delay the Milestone B decision. It
           took several months for the NAE-requested changes to be re-staffed and the
           acquisition strategy finally approved. However, program office personnel stated
           that the delay in approval of the acquisition strategy was due to staff schedules at
           the NAE level and that the acquisition strategy never changed after it was
           submitted at the milestone review. After examining the acquisition strategy we
           determined that the NAE signature was the only one dated after the acquisition
           decision memorandum was approved.

                   Surface Electronic Warfare Improvement Program. The Surface
           Electronic Warfare Improvement Program (SEWIP) had an approved acquisition
           strategy for Block 1A; however, the strategy was incomplete because it did not
           include a section on human systems integration or its components as required by
           DoD Instruction 5000.2. DoD Instruction 5000.2 requires the program manager
           to have a comprehensive plan for human systems integration in place early in the
           acquisition process to optimize total system performance, minimize total

4
    At Milestone C, a recommendation is made and approval sought for the program to leave the system
    development and demonstration phase and continue into the production and deployment phase of the
    acquisition life cycle. This milestone also authorizes low-rate initial production for the program.


                                                      9
ownership costs, and ensure that the system is built to accommodate the
characteristics of the user population that will operate, maintain, and support the
system. A SEWIP program official provided a separate human systems
integration plan for the program; however, it was developed after both spirals of
Block 1A were approved for Milestone C. The Deputy Assistant Secretary of the
Navy action officer stated that only spiral 2 of Block 1A required human systems
integration planning. The action officer stated that instead of including the plan
in the acquisition strategy for Block 1A, the program staff created a separate plan
as an independent document for the program and that the plan was completed or
near completion when the NAE approved the Milestone C acquisition decision
memorandum for spiral 2 of Block 1A. Because human systems integration was
not developed early in the acquisition process, the program’s system performance
and total ownership costs may be affected, along with optimized total system
performance.

Information Support Plan. Two programs did not have an information support
plan when the NAE approved their acquisition decision memorandums. The
information support plan (formerly known as the command, control,
communications, computers, and intelligence support plan) identifies and
documents information needs, infrastructure support, information technology, and
National Security Systems interface requirements and dependencies. The
information support plan focuses on net-centricity, interoperability,
supportability, and sufficiency concerns. Without the information support plan,
the NAE did not have all the required information to determine the program’s
information needs, infrastructure support, information technology, and interface
requirements and dependencies.

        Mark XIIA Mode 5 Identification Friend or Foe Upgrade. The
Mode 5 program did not have an information support plan when the NAE
approved its acquisition decision memorandum for the system development and
demonstration phase on August 7, 2003. The program manager did not complete
or obtain approval for an information support plan because he did not believe that
the document was a requirement even though the program’s operational
requirements document (ORD) identifies system interoperability requirements as
a key performance parameter. On June 28, 2006, the Deputy Assistant Secretary
of the Navy assigned to the Mode 5 program approved a waiver for the required
information support plan. However, the determination that the program did not
require an information support plan should have been made before the milestone
decision. The NAE should have required the program to either develop an
information support plan or obtain a waiver prior to approving the next milestone.

        AV-8B Harrier II Open Systems Core Avionics Requirements.
Program officials for AV-8B Harrier II Open Systems Core Avionics
Requirements (OSCAR) obtained a command, control, communications,
computers, and intelligence support plan waiver from Deputy Assistant Secretary
of the Navy Command, Control, Communications, Computers, and Intelligence
and Space; however, the waiver was not properly approved. DoD Regulation
5000.2-R, “Mandatory Procedures for Major Defense Acquisition Programs and
Major Automated Information System Acquisition Programs,” June 10, 2001,
states that an NAE, with the advice from the appropriate Chief Information
Officer, may waive command, control, communications, computers, and
intelligence support plan preparation if the Requirements Authority has

                                    10
previously waived the requirement for an interoperability key performance
parameter in the ORD. The Deputy Assistant Secretary of the Navy Command,
Control, Communications, Computers, and Intelligence and Space approved a
waiver for the program’s command, control, communications, computers, and
intelligence support plan. The waiver was granted because the program did not
have an interoperability key performance parameter in the AV-8B Radar and
Night Attack ORDs. OSCAR program officials currently consider these two
ORDs as their operational requirements documents. However, as noted in the
ORD section of this finding, we determined that OSCAR should have developed a
program-specific ORD. In addition, the waiver was not approved by the NAE as
required by DoD Regulation 5000.2-R. As a result, the reason for approving and
the approval authority for the waiver were invalid; the program should have
developed a command, control, communications, computers, and intelligence
support plan.

Mission Needs Statement. Nine of the 13 Navy programs we reviewed had a
mission needs statement. The mission needs statement documents the required
operational capabilities of a system. The mission needs statement must be
prepared in accordance with Chairman of the Joint Chiefs of Staff Instruction
3170.01, “Requirements Generation System,” August 10, 1999, and validated
prior to the beginning of the program. The mission needs statement is a legacy
document and has been replaced by the initial capabilities document.

        MH-60R Multi-Mission Helicopter. Program officials for MH-60R
Multi-Mission Helicopter did not believe that there was a mission needs statement
developed for the program. Instead, the need for the system was documented in
an ORD. The ORD, dated October 28, 2004, stated that “. . . there is a mission
need for an interdependent ship/air weapons system to extend and increase
Surface Warfare, Undersea Warfare, sea control and power projection capabilities
of surface forces in the conduct of offensive and defensive missions that support
national interests.”

       Navy Advanced Extremely High Frequency Multiband Terminal. The
need for Navy Advanced Extremely High Frequency Multiband Terminal is
described in the following mission needs statements:

            •   April 23, 1996, Follow-on Military Satellite Communications
                Mission Needs Statement (United States Space Command
                Mission Needs Statement 002-94);

            •   April 23, 1996, Follow-on Military Satellite Communications
                Mission Needs Statement (United States Space Command
                Mission Needs Statement 002-95); and

            •   August 3, 1998, Global Broadcast Service Mission Needs
                Statement.

On a number of occasions, we tried to obtain a copy of the mission needs
statements but program officials were not responsive. Without reviewing these
documents, we cannot verify whether the mission needs statements were
developed or that they support the need for the Navy Advanced Extremely High
Frequency Multiband Terminal.

                                   11
        Open Systems Core Avionics Requirements. The OSCAR program
office did not develop a mission needs statement. Instead, the program officials
stated that the OSCAR program was started as a demonstration program
designated by the Secretary of Defense.

Operational Requirements Document. Twelve of the 13 Navy programs we
reviewed had an ORD. The ORD is a legacy document that contains operational
performance requirements and parameters for the proposed concept or system.
DoD Regulation 5000.2-R, March 15, 1996, requires that an ORD be developed
for all acquisition programs. The program sponsor develops the ORD, the Chief
of Naval Operations or Commandant of the Marine Corps approves it, and the
Joint Requirements Oversight Council validates it.

        Open Systems Core Avionics Requirements. The program sponsor did
not develop an ORD for the OSCAR program; however, the NAE approved the
program to proceed through all milestone decisions, including full-rate
production, without requiring the program manager to develop an ORD. As a
result, we were unable to determine the warfighter requirement for the OSCAR
acquisition program or identify the capability gap that the OSCAR acquisition
program was intended to fill. In addition, without an approved ORD, the NAE
was unable to determine the operational performance requirements and
parameters for the proposed system. As of August 2004, the program officials did
not intend to issue an OSCAR-specific ORD.

Systems Engineering Plan. Two programs did not have a properly approved
systems engineering plan prior to milestone approval. The systems engineering
plan describes the program’s overall approach, including processes, resources,
metrics, and applicable performance incentives. The plan also details the timing,
conduct, and success criteria of technical reviews. Systems engineering focuses
on defining user needs and required functionality early in the development cycle,
documenting requirements, then proceeding with design synthesis and system
validation to achieve the total capability.

        AN/AES-1 Airborne Laser Mine Detection System. Program officials
for the AN/AES-1 Airborne Laser Mine Detection System provided the
program’s system engineering management plan instead of a systems engineering
plan. The system engineering management plan contained the same elements as
required of the systems engineering plan. However, the system engineering
management plan was not approved by the NAE as required by the February 20,
2004, USD(AT&L) memorandum. The memorandum was issued approximately
1 year and 4 months prior to the program’s Milestone C approval, which should
have provided the program ample time to get NAE approval of the document. As
a result, the program did not have a valid systems engineering plan when the NAE
issued an acquisition decision memorandum for Milestone C.

       Surface Electronic Warfare Improvement Program. The SEWIP
program provided the SEWIP system engineering management plan instead of a
systems engineering plan. The system engineering management plan is a legacy
document that has been replaced by the systems engineering plan. Both
documents contain the same elements. However, SEWIP system engineering
management plan was not approved by the NAE as required by the USD(AT&L)
memorandum, “Policy for Systems Engineering in DoD,” February 20, 2004.

                                    12
The memorandum requires that all programs develop a systems engineering plan
for milestone decision authority approval in conjunction with each milestone
review. The memorandum was issued approximately 1 year before Block 1A
spiral 1 was approved for Milestone C and 1 year and 9 months before Block 1A
spiral 2 was approved for Milestone C, which should have provided the program
office ample time to get NAE approval of the document. However, the program
did not have an approved systems engineering plan when the NAE issued the
acquisition decision memorandum for Milestone C.

Test and Evaluation Master Plan. The NAE approved acquisition decision
memorandums for two programs that had test and evaluation master plans that the
Director, Operational Test and Evaluation had not yet approved. The test and
evaluation master plan documents the overall structure and objectives of the test
and evaluation program. The program manager submits it at Milestone B and C,
and at the full-rate production decision review. The Director, Operational Test
and Evaluation must approve the plan for ACAT IC programs and for programs
on the Office of the Secretary of Defense Test and Evaluation oversight list. The
NAE approves the test and evaluation master plan for ACAT II programs. The
test and evaluation master plan describes planned developmental, operational, and
live-fire testing. It includes measures to evaluate the performance of the system
during these test periods, an integrated test schedule, and the resources
requirements to accomplish the planned testing.

        MH-60R Multi-Mission Helicopter. Even though the Director,
Operational Test and Evaluation had not approved the MH-60R test and
evaluation master plan Revision C, the NAE approved full-rate production on
March 31, 2006. Revision C of the test and evaluation master plan addresses
follow-on operational test and evaluation activities for the MH-60R upgrades and
enhancements in the form of planned product improvements. The program
manager must submit the approved test and evaluation master plan as part of the
full-rate production decision review. Commander, Operational Test and
Evaluation Force conducts follow-on operational test and evaluation during the
operations and support phase. Therefore, the test and evaluation master plan
Revision C should have been approved prior to full-rate production approval.
Because the Director, Operational Test and Evaluation had not approved the test
and evaluation master plan Revision C, the NAE could not be assured that
planned follow-on operational test and evaluation were appropriate or adequate.

        Navy Advanced Extremely High Frequency Multiband Terminal. The
Navy Advanced Extremely High Frequency Multiband Terminal program’s test
and evaluation master plan was not approved by Director, Operational Test and
Evaluation until almost 2 years after the NAE approved the acquisition decision
memorandum for Milestone B. The program was approved for Milestone B
because the NAE decided that a Navy-approved test and evaluation master plan
was adequate even though the program was listed on the Director, Operational
Test and Evaluation oversight list. After the milestone review, the program
manager continued to experience delays in getting the test and evaluation master
plan approved by the Director, Operational Test and Evaluation. Program
officials revised the plan several times as a result of unanticipated delays in
finalizing the source selection process for the Navy Advanced Extremely High
Frequency Multiband Terminal. The contract for the system development and
demonstration phase was awarded on October 29, 2003, eight days after the NAE

                                   13
     approved the acquisition decision memorandum. The Director, Operational Test
     and Evaluation approved the test and evaluation master plan on September 8,
     2005. Because the Director, Operational Test and Evaluation had not approved
     the plan before the NAE approved the acquisition decision memorandum, the
     NAE could not be assured that the overall structure and objectives of the test and
     evaluation program for the Navy Advanced Extremely High Frequency Multiband
     Terminal were appropriate or adequate.


Milestone Documentation Agreements
     The programs were allowed to proceed without approval of required acquisition
     documentation and the decision was not formally noted in a waiver, tailored
     acquisition agreement, or acquisition decision memorandum. After meeting with
     Deputy Assistant Secretary of the Navy action officers, we learned that when a
     required document is not provided or properly approved at a milestone decision,
     as required by DoD Instruction 5000.2, the NAE will typically approve a waiver
     for the document or add a provision in the acquisition decision memorandum that
     requires the program manager to complete and submit it for approval before the
     program can advance further through the acquisition process. In addition,
     SECNAV Instruction 5000.2C states that the NAE may tailor documentation and
     milestone requirements. The NAE is required to approve the streamlined, tailored
     documentation approach during program initiation and prior to all other
     milestones. Only 2 out of the 10 programs with missing or improperly approved
     documents had formal tailoring agreements. However, even those programs were
     missing or had improperly approved documents. In addition, we were unable to
     locate properly approved waivers or provisions in the acquisition decision
     memorandums for the programs with missing or improperly approved documents.


Results of Milestone Review Process
     When asked why the programs were allowed to proceed to the next milestone
     without key documents or approval of key documents, the responses varied from
     program office staff and representatives from the Deputy Assistant Secretary of
     the Navy level. In one instance, program officials could not offer an explanation.
     In general, key acquisition documents were either not provided for milestone
     reviews or were not properly approved at milestone reviews because DoD and
     Navy policies outlining the acquisition process and documentation requirements
     were misinterpreted at the program level or not followed by the NAE. In
     addition, it was unclear why the NAE allowed programs to proceed through
     milestones without proper documentation because formal tailored documentation
     agreements did not exist, waivers for missing documents were not done or were
     not properly approved, and documentation decisions associated with each
     milestone review were not being documented in acquisition decision
     memorandums. As a result, the NAE did not have all the necessary information
     required to make fully informed milestone decisions.




                                         14
Updating Program Documentation Between Milestone Reviews
    Of the 13 programs reviewed, 7 had identified deviations in performance,
    schedule, or cost thresholds between milestone reviews. We found that one of the
    seven program managers had not submitted a formal deviation report as required
    by SECNAV Instruction 5000.2C. For three of the seven programs, either the
    program manager did not provide the NAE with updated acquisition program
    baselines between milestone decision reviews or the NAE did not approve the
    updated acquisition program baselines in a timely manner.

    Acquisition Program Baselines. The acquisition program baseline prescribes
    the key cost, schedule, and performance constraints that must be achieved by the
    program before the next milestone decision review in the acquisition process.
    The constraints are documented in the objective and threshold values for each
    parameter, and the program manager manages the program to the objective value
    of each parameter. Thresholds represent the acceptable limits to the parameter
    values that still provide the needed capability. The failure to attain program
    thresholds may degrade system performance, delay the program, or make the
    program too costly. The failure to attain program thresholds places the overall
    affordability of the program and the capability provided by the system into
    question. The program manager revises the acquisition program baseline for each
    milestone review. The program manager also revises the acquisition program
    baseline if the program is restructured or has an unrecoverable deviation.

    Program Deviations. The Defense Acquisition Guidebook states that a program
    deviation occurs
           when the program manager believes that the current estimate for the
           program indicates that a performance, schedule, or cost threshold value
           will not be achieved. Within 30 days of the program deviation, the
           program manager should notify the NAE of the reason for the program
           deviation and the actions that will bring the program back within the
           baseline parameters. Within 90 days of the program deviation, one of
           the following should have occurred: the program is back within
           acquisition program baseline parameters; a new acquisition program
           baseline, changing only those parameters that were breached, has been
           approved; or an Overarching Integrated Product Team level program
           review has been conducted to review the program manager’s proposed
           baseline revisions and make recommendations to the milestone
           decision authority for preparing, submitting, and updating required
           program documentation.

    SECNAV Instruction 5000.2C states that the program manager must provide a
    deviation report to the NAE immediately upon program deviation.

           Navy Advanced Extremely High Frequency Multiband Terminal. The
    program manager issued four deviation reports to the ASN(RD&A) for the Navy
    Advanced Extremely High Frequency Multiband Terminal program. The first
    report was issued on June 29, 2004, and stated that an updated acquisition
    program baseline would be submitted within 90 days. A second deviation report,
    issued on October 19, 2004, updated the initial deviation report and stated that the


                                             15
revised acquisition program baseline would be submitted within 270 days. A
third deviation report, issued on February 22, 2005, updated the initial deviation
report and stated that a revised acquisition program baseline would be submitted
in June 2005. A fourth deviation report, issued on May 18, 2005, updated the
initial deviation report and reiterated that a revised acquisition program baseline
would be submitted in June 2005. The Defense Acquisition Guidebook
recommends that an acquisition program baseline be updated and approved within
90 days of a program deviation or that an Overarching Integrated Product Team
conduct a baseline review. The program’s Deputy Assistant Secretary of the
Navy action officer stated that after a June 9, 2006, briefing to the NAE by the
program manager, the NAE approved the acquisition program baseline. As of
October 2006, the acquisition program baseline was not yet approved. As a
result, we were unable to verify that an updated acquisition program baseline was
developed and approved for the program. Even if the program had an updated
and approved acquisition program baseline, the program was still outside
acquisition program baseline parameters for 2 years. In addition, an Overarching
Integrated Product Team still has not properly conducted a baseline review.

        Open Systems Core Avionics Requirements. The OSCAR program
manager issued a program deviation report on April 7, 2003. The program
manager signed an updated acquisition program baseline on July 14, 2003; the
PEO concurred July 16, 2003; and the NAE approved it on November 24, 2003,
130 days after the PEO concurred. Based on these dates, the program manager
did not have an updated and approved acquisition program baseline within
90 days as specified in the Defense Acquisition Guidebook.

        AN/AES-1 Airborne Laser Mine Detection System. In April 2004, the
AN/AES-1 Airborne Laser Mine Detection System program deviated from the
approved acquisition program baseline. Although the program manager
developed a deviation report memorandum, it was never forwarded to the NAE.
Instead, the program manager informed the NAE of the deviation through a series
of status reviews that took place from June 2004 through March 2005. Those
reviews identified the acquisition program baseline deviation and proposed
strategy changes that would affect the program’s cost and schedule. The strategy
changes were identical to those proposed in the deviation report memorandum
that the program manager did not submit to the NAE. Instead of routing the
deviation report memorandum to the NAE, the program manager focused on
routing and obtaining signatures on the updated acquisition program baseline
because he felt the briefings appropriately notified the NAE of the program’s
deviations. However, the June 2004 presentation recommended the development
of a deviation memorandum, and a September 2004 presentation updated the
status of the deviation memorandum as being signed by the program manager and
en route to the PEO. SECNAV Instruction 5000.2C allows the program manager
to choose the deviation report’s presentation medium. Every program deviation
report we reviewed was provided in the form a memorandum. Had the program
manager intended the presentations to serve as the deviation report, the program
manager would not have developed a deviation report memorandum. A deviation
report should have been provided to the NAE immediately upon program
deviation as required by DoD Instruction 5000.2 and SECNAV Instruction
5000.2C. An updated acquisition program baseline was approved June 14, 2005,
when the program had a Milestone C decision, approximately 1 year after the
NAE was first informed of the deviation in program briefings.

                                    16
Tracking Program Deviations in Dashboard
    The NAE does not track program deviations or their causes, effects, and
    mitigations in the Navy Dashboard database. We reviewed the Navy Dashboard
    database to determine the status of the deviation reports for each program;
    however, we discovered that program officials do not track deviation reports and
    mitigation strategies in the Navy Dashboard database. In the Dashboard database,
    anytime the program manager’s current estimate exceeds the threshold value, the
    cause of the breach is required to be entered in a field contained in the database.
    This does not replace the requirement for the program manager to immediately
    notify the NAE of the breach to the acquisition program baseline. Other than the
    input in the Dashboard database, the NAE had no way to track the deviation
    report and its mitigation strategy for bringing the program back within acquisition
    program baseline parameters.


Monitoring Programs Between Milestones
    The NAE was unable to determine whether the programs met cost, schedule, and
    performance constraints between milestone reviews because the objective and
    threshold parameters within the acquisition program baselines were no longer
    current for the programs. Without an updated acquisition program baseline, the
    program manager had no cost, schedule, and performance constraints to manage
    the program between milestone reviews.


Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our audit response are in
    Appendix H.


Recommendations, Management Comments, and Audit
  Response
    Revised and Deleted Recommendations. The Deputy Assistant Secretary of the
    Navy (Management and Budget) provided management comments on behalf of
    the ASN(RD&A). As a result of management comments, we revised draft
    Recommendation A.3. and Recommendation A.5. to clarify the intent of the
    recommendations. Additionally, we deleted Recommendation A.1.e. because it
    duplicated Recommendation A.1.c.

    A.1. We recommend that the Assistant Secretary of the Navy (Research,
    Development, and Acquisition):

          a. Comply with Under Secretary of Defense Acquisition, Technology,
    and Logistics memorandum, “Policy for Systems Engineering in DoD,”


                                        17
February 20, 2004; DoD Instruction 5000.2; and Secretary of the Navy
Instruction 5000.2C when reviewing and approving systems engineering
plans as part of a program’s milestone review.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), concurred. He
stated that in June 2005, the ASN(RD&A) issued Department of the Navy
memorandum, “Policy for Department of the Navy Systems Engineering Plan
Review and Approval,” to implement the requirements of the USD(AT&L)
memorandum. In April 2006, the ASN(RD&A) consolidated responsibility for
systems engineering plan development and approval with memorandum, “Revised
Policy for Department of Navy Systems Engineering Plan Review and Approval.”
In accordance with the memorandum, the ASN(RD&A) Chief Engineer has been
delegated the responsibility for approval of all ACAT IC and II systems
engineering plans. The responsibilities of the PEOs and Systems Commanders to
ensure timely development and implementation of quality systems engineering
plans were emphasized, and the Chief Engineer has the primary responsibility for
their approval. In addition, the SECNAV Instruction 5000.2D has been updated
accordingly.

Audit Response. The comments were responsive to the recommendation.

      b. Review, sign, date, and maintain decision documents in the
program files as a result of milestone reviews in the acquisition decision
memorandum, waiver, or tailored documentation agreement.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), concurred. He
stated that the ASN(RD&A) will formally document decisions regarding tailoring
or waiver of documentation in future acquisition decision memorandums,
tailoring agreements, or waiver approvals. The Deputy Assistant Secretary of the
Navy (Management and Budget) also stated that these documents will be
maintained in the program files for future reference.

Audit Response. The comments were responsive to the recommendation.

       c. Comply with the Defense Acquisition Guidebook recommendations
to update and approve acquisition program baselines for programs between
milestone decision reviews within 90 days.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), partially concurred.
The Deputy Assistant Secretary of the Navy (Management and Budget) stated that
although the milestone decision authority’s approval of the revised acquisition
program baseline is desired within 90 days of the deviation, it is not always
feasible. He further stated that given the number of ACAT programs, the
volatility of these efforts, the normal time required to develop an independent cost
estimate, and all other administrative issues associated with acquisition program
baseline revisions, approval by the milestone decision authority is not always
feasible within 90 days. The Deputy Assistant Secretary of the Navy
(Management and Budget) stated that the Defense Acquisition Guidebook is
considered guidance and is not regulatory or required. He stated that the

                                    18
Department of the Navy strives to obtain approval of revised acquisition program
baselines as expediently as possible.

Audit Response. The comments were responsive to the recommendation. We
understand that it is not always feasible to have the milestone decision authority’s
approval within 90 days. We also understand that the Defense Acquisition
Guidebook is considered guidance and not regulatory or required. However, the
Defense Acquisition Guidebook does provide alternative actions if the milestone
decision authority is unable to approve the acquisition program baseline within 90
days. The Defense Acquisition Guidebook states that within 90 days of the
program deviation, one of the following should have occurred: the program is
back within acquisition program baseline parameters; a new acquisition program
baseline, changing only those parameters that were breached, has been approved;
or an Overarching Integrated Product Team level program review has been
conducted to review the program manger’s proposed baseline revisions and make
recommendations to the milestone decision authority.

       d. Track deviation reports in the Navy Dashboard database to
include the date, cause, effect, and mitigation.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), concurred. He
stated that the ASN(RD&A) will make the necessary changes to the Navy
Dashboard database and start tracking deviation reports and baseline breaches. In
a follow-up conversation regarding management comments, an ASN(RD&A)
representative indicated that Dashboard should be modified to track deviation
reports by the end of June 2007.

Audit Response. The comments were responsive to the recommendation.

A.2. We recommend that program managers maintain approved
documentation for the life of the acquisition program.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), concurred. He
stated that program offices are expected to maintain appropriate repositories of
program documentation for the life cycle of the acquisition program. The Deputy
Assistant Secretary of the Navy (Management and Budget) also stated that the
ASN(RD&A) will issue additional guidance to the various program offices to
reinforce this requirement.

Audit Response. The comments were responsive to the recommendation.

A.3. We recommend that the AV-8B Harrier II Open Systems Core Avionics
Requirements program manager develop and prepare a tailored Information
Support Plan as required by DoD Instruction 5000.2 or obtain a properly
approved waiver.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), nonconcurred. He
stated that at the time of OSCAR’s development, there were no specific
interoperability requirements for the OSCAR system beyond the legacy system it

                                     19
replaced. For these reasons, a command, control, communications, computers,
and intelligence support plan waiver was granted on August 25, 2003. The NAE
was aware of the waiver and agreed with it. The Navy believes that the original
waiver was properly processed and approved. The rationale for the original
waiver request was valid and remains valid. The OSCAR program is currently
58-percent delivered to the Fleet. Retroactively completing an information
support plan at this point in the program’s life cycle would be an inefficient use of
available resources with limited or no benefit to the program.

Audit Response. The comments were not responsive to the recommendation.
We request that the Navy reconsider its position and provide comments on the
final report. The OSCAR program should either develop a tailored information
support plan or obtain a properly approved waiver.

Although program officials for OSCAR obtained a command, control,
communications, computers, and intelligence support plan waiver from the
Deputy Assistant Secretary of the Navy (Command, Control, Communications,
Computers, and Intelligence and Space), the waiver did not have the correct
approval authority and the waiver was based on inappropriate ORDs. DoD
Regulation 5000.2-R, “Mandatory Procedures for Major Defense Acquisition
Programs and Major Automated Information System Acquisition Programs,”
June 10, 2001, states that the NAE, with the advice from the appropriate chief
information officer, may waive command, control, communications, computers,
and intelligence support plan preparation if the requirements authority has
previously waived the requirement for an interoperability key performance
parameter in the ORD. The waiver was not approved by the NAE as required by
DoD Regulation 5000.2-R. As a result, the approval authority for the waiver was
invalid.

In addition, the approval of the waiver was not based on all of the ORDs being
used for OSCAR. In a Department of the Navy memorandum, March 26, 2003,
the Office for Chief of Naval Operations supported waiving the requirement for
an OSCAR command, control, communications, computers, and intelligence
support plan for the following reasons.

   •   The AV-8B Radar and Night Attack ORDs, which govern the OSCAR
       program, do not include an interoperability key performance parameter.

   •   The AV-8B Radar and Night Attack ORDs do not include an external
       information exchange requirements.

   •   Of the two major components that make up the OSCAR program, the
       mission computer already has a command, control, communication,
       computer and intelligence support plan waiver, and the weapons computer
       has no connection to the communications and information infrastructure.

However, in our review of the test and evaluation master plan, we found that the
OSCAR program is testing requirements found in additional ORDs that are not
listed in the memorandum. Those additional requirements are:

   •   Joint Direct Attack Munition ORD,


                                     20
   •   ARC-210 ORD, and

   •   AV-8B Targeting Pod Requirements Letter.

Therefore, because the waiver was not properly approved by the NAE and the
memorandum asking for approval does not contain all the requirements for the
OSCAR system, we feel the waiver is not valid. In addition to this audit, DoD IG
Report No. D-2004-109, “Implementation of the DoD Management Control
Program for Navy Acquisition Category II and III Programs,” August 17, 2004,
found that the program sponsor did not develop an ORD for the OSCAR program
as required by DoD Instruction 5000.2.

A.4. We recommend that the Surface Electronic Warfare Improvement
Program and the AN/AES-1 Airborne Laser Mine Detection System
program managers submit their systems engineering plans for Navy
Acquisition Executive approval as required by Under Secretary of Defense
(Acquisition, Technology, and Logistics) memorandum, “Policy for Systems
Engineering in DoD,” February 20, 2004.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), concurred. He
stated that the SEWIP systems engineering plan was approved on October 22,
2006. In addition, and in order to maintain the relevancy and effectiveness of the
SEWIP systems engineering plan, the ASN(RD&A) Chief Engineer has tasked
the SEWIP program manager to update the systems engineering plan to reflect
program changes that occurred during its approval process.

The Deputy Assistant Secretary of the Navy (Management and Budget) also
stated that the Airborne Laser Mine Detection System program manager has
concurred and agreed to develop a systems engineering plan by March 2007.
This systems engineering plan will be an annex to a Global Organic Airborne
Mine Counter Measures systems engineering plan. This approach has been
planned with and approved by the ASN(RD&A) Chief Engineer.

Audit Response. The comments were responsive to the recommendation.

A.5. We recommend that the Navy Advanced Extremely High Frequency
Multiband Terminal program manager submit an updated acquisition
program baseline to the Navy Acquisition Executive within 90 days of the
issuance of this report.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), stated that the
requirement for a new Navy Advanced Extremely High Frequency Multiband
Terminal acquisition program baseline was due to the increase in the scope and
cost of the program to a new, higher ACAT level (from an ACAT II to an ACAT
IC). The program office reported an acquisition program baseline deviation and
continued to resubmit program deviation reports to update the status.
Development and approval time of the acquisition program baseline was
unusually extensive. The new corrected revision of the acquisition program
baseline has been forwarded to the ASN(RD&A) for approval.


                                    21
In addition, the Deputy Assistant Secretary of the Navy (Management and
Budget) noted that the following statement from the draft report was incorrect:
“However, after the program was designated as an ACAT IC, the approval of the
acquisition program baseline was withdrawn.” He proposed this statement be
changed to: “After designation of the program as an ACAT IC, the acquisition
program baseline revision was approved. However, after the approval it was
noted that inadvertently there were some changes to the performance section in
error that required the acquisition program baseline to be corrected and resigned.
The new corrected revision of the APB has been forwarded to ASN(RD&A) for
approval.”

Audit Response. The comments were responsive to the recommendation. We
removed the statement in question.




                                    22
           B. Operational Testing in the Milestone
              Decision Process
           The NAE approved 8 of the 13 programs we reviewed for either low-rate
           initial production (LRIP) or full-rate production. The NAE approved five
           of the eight programs for LRIP or full-rate production even though
           operational assessment problems were evident. Three programs were
           approved for production without an operational assessment being
           conducted. In addition, one program was approved for LRIP even though
           operational assessment determined the system was immature and critical
           operational issues could not be evaluated, and officials from one other
           program purchased all systems prior to completing operational testing.
           These conditions occurred for the following reasons.

                   •   Program officials believed an operational assessment was not
                       required by the acquisition decision memorandum and the
                       system’s readiness to deploy could be demonstrated during
                       developmental testing.

                   •   The NAE delegated the LRIP decision authority to the PEO
                       who eliminated the operational assessment due to schedule
                       delays and the low risk from eliminating the operational
                       assessment.

                   •   Program officials did not comply with the acquisition decision
                       memorandum to complete an operational assessment prior to
                       the LRIP decision.

                   •   Program officials believed the procurement was necessary to
                       permit an orderly transition to full-rate production.

                   •   The NAE approved the purchase of all systems prior to the
                       completion of operational test and evaluation to realize
                       potential cost savings and to stabilize the production line.

           As a result, the NAE did not determine whether programs were
           operationally effective and suitable prior to approving production
           quantities costing about $25 billion. Without that information, the Navy
           could incur additional development work and operational testing that
           would lead to cost overruns and schedule delays.


DoD and Navy Policy
    DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
    2003, and SECNAV Instruction 5000.2C, “Implementation and Operation of the
    Defense Acquisition System and the Joint Capabilities Integration and
    Development System,” November 19, 2004, establish requirements for
    operational test and evaluation and require LRIP quantities greater than

                                       23
    10 percent to be documented in the acquisition decision memorandum. The
    Defense Acquisition University Test and Evaluation Management Guide assists
    the acquisition community in obtaining a better understanding of who the
    decision makers are and determining how and when to plan test and evaluation
    events.

    DoD Instruction. DoD Instruction 5000.2 states that operational test and
    evaluation will determine the effectiveness and suitability of the system. The
    milestone decision authority decides whether to commit DoD to production at
    Milestone C. Milestone C authorizes a program’s entry into the production and
    deployment phase. For major Defense acquisition programs and other Director,
    Operational Test and Evaluation oversight programs, production and deployment
    includes LRIP and a full-rate production decision review. The purpose of the
    production and deployment phase is to achieve an operational capability that
    satisfies the mission needs. Entrance into this phase depends on acceptable
    performance in development, test, and evaluation; operational assessment; mature
    software capability; and acceptable operational supportability.

    DoD Instruction 5000.2 further states that LRIP quantities should be minimized.
    The milestone decision authority determines the LRIP quantities for major
    Defense acquisition programs and major systems at Milestone B. The milestone
    decision authority must approve any increase in LRIP quantity after the initial
    determination. The acquisition strategy must document the rationale for
    quantities exceeding 10 percent of total production.

    Navy Instruction. SECNAV Instruction 5000.2C states that LRIP quantities
    greater than 10 percent of a program’s inventory objective must be justified in the
    acquisition decision memorandum and acquisition strategy. SECNAV
    Instruction 5000.2C also states that once a program has expended greater than
    90 percent of the total program cost, the program manager should request that the
    NAE remove the program from the acquisition category listing.

    Defense Acquisition University Test and Evaluation Management Guide. The
    Defense Acquisition University Test and Evaluation Management Guide states
    that an operational assessment is an evaluation of the operational effectiveness
    and operational suitability made by an independent operational test activity, with
    user support on other than production systems. An operational assessment
    identifies significant trends noted in the development effort, risk areas, adequacy
    of requirements, and the ability of the program to support adequate operational
    testing. An operational assessment may be conducted at any time using
    technology demonstrators, prototypes, engineering development models, or
    simulations, but will not substitute for initial operational test and evaluation
    necessary to support full-rate production decisions.


Operational Test and Evaluation Overview
    Developmental Test and Evaluation. SECNAV Instruction 5000.2C states that
    developmental test and evaluation is conducted to support risk management,
    provide data on the progress of system development, and determine readiness for
    operational test and evaluation.

                                         24
    Operational Test and Evaluation. According to the Defense Acquisition
    University Test and Evaluation Management Guide, operational test and
    evaluation includes operational assessment, initial operational test and evaluation
    (referred to as operational evaluation by the Navy), and follow-on operational test
    and evaluation. DoD Instruction 5000.2 states that for major Defense acquisition
    programs and other Director, Operational Test and Evaluation programs,
    production and deployment has two major efforts: LRIP and full-rate production.
    Entrance into this phase depends upon acceptable performance in development,
    test and evaluation, and operational assessment. In addition, the Instruction
    states, “Operational Test Agency shall conduct an independent, dedicated phase
    of initial operational test and evaluation before full-rate production to evaluate
    operational effectiveness and suitability.”

    Operational Assessment. The Defense Acquisition University Test and
    Evaluation Management Guide states that operational assessments are part of
    operational test and evaluation and are conducted to determine risk areas,
    adequacy of requirements, and the ability of the program to support operational
    testing. An operational assessment is normally conducted prior to Milestone C to
    provide an early assessment of the potential operational effectiveness and
    suitability for decision makers at decision points. These assessments attempt to
    project the system’s potential to meet user requirements.


Approval of Production Without Operational Assessment
    The NAE approved production decisions for 3 of the 13 programs reviewed
    without having an operational assessment as required by the DoD Instruction
    5000.2. Therefore, the NAE did not have documentation to determine whether
    the systems were operationally effective and suitable to meet user requirements.
    DoD Instruction 5000.2 states that the purpose of the production and deployment
    phase is to achieve an operational capability that satisfies the mission needs.
    Entrance into this phase depends, in part, on acceptable performance in
    development, test, and evaluation; operational assessment; mature software
    capability; no significant manufacturing risks; acceptable interoperability; and
    acceptable operational supportability.

    AN/AES-1 Airborne Laser Mine Detection System. Program officials for the
    AN/AES-1 Airborne Laser Mine Detection System did not conduct an operational
    assessment prior to the NAE approval of the LRIP acquisition decision
    memorandum on June 14, 2005. Program officials eliminated the program’s
    operational assessment because the acquisition decision memorandum did not
    require it and program officials could demonstrate the system’s readiness to
    deploy during developmental testing. A developmental test report was issued in
    April 2005. It stated that the target depth and false contact density performance
    parameters were waived for Milestone C. In addition, the target depth key
    performance parameter threshold was reduced to 60 percent of the threshold depth
    for the LRIP decision. In an acquisition decision memorandum dated June 14,
    2005, the NAE approved Milestone C LRIP although the system had shortfalls in
    three performance parameters, based on acceptance of the shortfalls by the Fleet
    and Resource Sponsor. Further, the NAE approved the program for LRIP



                                        25
quantities greater than the 10-percent threshold without an explanation in the
acquisition decision memorandum as required by SECNAV Instruction 5000.2C.

Open Systems Core Avionics Requirements. Program officials did not
conduct an operational assessment prior to the Program Executive Officer Air
Antisubmarine Warfare (ASW), Assault, and Special Mission Programs approval
of LRIP I on April 12, 2002. The NAE delegated the LRIP I decision authority
to the PEO Air ASW, Assault and Special Mission Programs on March 20, 2000.
Program officials eliminated the operational assessment from the OSCAR test
schedule to avoid test schedule delays that would occur because the AV-8B
aircraft was not available for testing. The program manager provided the PEO
with a program deviation report dated May 2, 2001. It stated that a
developmental/operational test period had been included in the OSCAR schedule
so that an early look at the risky portions of the software functionality could be
conducted. However, program officials felt that the software functionality risk
was low and the developmental/operational test period was no longer necessary.
This software functionality would be tested during operational evaluation testing.
In addition, the program manager provided the PEO Air ASW, Assault and
Special Mission Programs with a program deviation report dated April 4, 2003.
It stated that the OSCAR program deviated from its approved baseline dated
February 7, 2002, to correct anomalies discovered during OSCAR operational
evaluation testing. This resulted in a 1-year delay in the completion of
operational evaluation testing from July 2003 to July 2004. Had program
officials conducted an operational assessment, these anomalies could have been
detected prior to entering into operational evaluation testing.

In a report dated July 20, 2004, the Commander, Operational Test and Evaluation
Force found the OSCAR program to be operationally effective but not
operationally suitable. On August 16, 2004, the NAE issued an acquisition
decision memorandum approving full-rate production. In the memorandum, the
NAE stipulated all suitability issues in the operational test report must be
corrected and that the Commander, Operational Test and Evaluation Force must
verify the corrections prior to fleet introduction and initial operational capability.
Program office and NAE staff did not have documentation to show that the
corrections were made to OSCAR and that the corrections were verified by the
Commander, Operational Test and Evaluation Force. As a result, we were unable
to determine whether the corrections were made to OSCAR or that the corrections
were verified by the Commander Operational Test and Evaluation Force. A
former member of the OSCAR Overarching Integrated Product Team advised us
that OSCAR was released to the fleet without any evidence the corrections were
made.

MH-60R Multi-Mission Helicopter. Program officials for the MH-60R did not
complete an operational assessment prior to LRIP II approval. The program
changed its acquisition strategy from a remanufacture approach to a new-built
approach starting with LRIP II, in an acquisition decision memorandum dated
March 14, 2002. In addition, the acquisition decision memorandum required
completion of an operational assessment with a conclusion that the MH-60R was
potentially operationally effective and suitable prior to the approval of LRIP II.
The Commander, Operational Test and Evaluation Force conducted an
operational assessment of the MH-60R from June 2, 2003, through
September 3, 2003. However, prior to completion of the operational assessment,

                                     26
     the program office terminated the testing due to poor performance of the radar,
     electronic support measures, and acoustic subsystems. The NAE approved the
     program for LRIP II on December 15, 2003, even though an operational
     assessment was not completed, as required by DoD Instruction 5000.2 and the
     acquisition decision memorandum March 14, 2002. In addition, no justification
     was included in the acquisition decision memorandum for proceeding with LRIP
     without the required operational assessment.

     Further, a second operational assessment was conducted from October through
     December 2004. The operational assessment report, dated March 18, 2005, stated
     that the system did not meet all threshold values for operational effectiveness and
     operational suitability. Although the report included a listing of recommendations
     that, if not addressed, could result in the failure of operational evaluation testing,
     the Commander, Operational Test and Evaluation Force recommended continued
     program development. In addition, the NAE approved LRIP III, in an acquisition
     decision memorandum April 5, 2005.


Approval of Low-Rate Initial Production With Known
  Deficiencies
     AN/APG-79 Active Electronically Scanned Array Radar System. Despite
     risks and deficiencies identified in operational assessment, the NAE approved
     acquisition decision memorandums for the procurement of 84 AN/APG-79 Active
     Electronically Scanned Array Radar Systems from July 2003 through
     February 2006. Additionally, these procurements represented 20 percent of the
     total number of systems to be purchased. However, the February 2006
     acquisition decision memorandums did not contain justification to exceed the 10-
     percent LRIP guideline as required by SECNAV Instruction 5000.2C. The
     Commander, Operational Test and Evaluation Force issued an Operational
     Assessment Test Report for the AN/APG-79 Active Electronically Scanned Array
     Radar System on April 4, 2006. The report stated that the system did not meet or
     exceed threshold values. The Commander, Operational Test and Evaluation
     Force recommended the continued development of the system and an additional
     developmental test-assist period once deficiencies noted in the report have been
     corrected. However, the NAE approved LRIP even though operational
     assessments disclosed that the system was not mature, all critical operational
     issues could not be evaluated, and the system did not meet or exceed threshold
     values.


Procuring All Systems Prior to Operational Evaluation
     AN/SPY-1D(V) Radar Upgrade. The NAE approved procurement of all
     22 AN/SPY-1D(V) systems from January 1997 through December 2003, while
     the program was in LRIP. The NAE stated that because the AN/SPY-1D(V)
     system was an integral part of the DDG-51 ship structure, it was essential that its
     acquisition strategy support the DDG-51 multiyear ship construction schedule.
     The NAE decided that the advantages of the LRIP approach, which included the
     opportunity to realize cost savings and stabilize essential elements of the

                                           27
    production base, outweighed the low risks associated with the decision to
    proceed.

    DoD Instruction 5000.2 and SECNAV Instruction 5000.2C require that an
    independent operational test and evaluation (referred to by the Navy as
    operational evaluation) be conducted prior to the full-rate production decision.
    The Commander, Operational Test and Evaluation Force conducted an
    operational evaluation of the AN/SPY-1D(V) system in March, October, and
    November 2005 and issued an Operational Evaluation Test Report on April 5,
    2006. The test was conducted and the report was issued after approval was given
    to procure all 22 AN/SPY-1D(V) systems. The test report stated that the system
    did not meet all suitability threshold values. However, the Commander,
    Operational Test and Evaluation Force recommended continued fleet introduction
    of the AN/SPY-1D(V) system with priority given to the correction and
    verification of the suitability issues noted in the report. According to the program
    manager, correction and verification of the suitability issues discussed in the
    Operational Evaluation Test Report is ongoing. The AN/SPY-1D(V) system was
    scheduled for a Milestone C full-rate production decision review between
    July 2006 and January 2007. The program office staff anticipates requesting that
    the NAE remove the program from the acquisition category listing and close out
    the program without a Milestone C full-rate production decision meeting. At the
    time of our review, program office staff stated they are working on the closeout.

    In approving the procurement of all 22 AN/SPY-1D(V) systems in LRIP, the
    NAE made a full-rate production decision without conducting an operational
    evaluation of the AN/SPY-1D(V) system to ensure the system was operationally
    effective and suitable and met the users needs.


Related Audit Coverage
    The DoD Inspector General (IG) issued Report No. D-2006-001, “Audit of the
    Common Submarine Radio Room,” October 3, 2005, which stated that the
    program manager did not schedule an operational assessment of the Common
    Submarine Radio Room prior to the June 2005 LRIP decision program review.
    The DoD IG recommended that the program manager delay the review of LRIP
    until he obtains an operational assessment that states the Common Submarine
    Radio Room is operationally effective and suitable. The Navy nonconcurred with
    the recommendation; however, during mediation the Commander, Operational
    Test and Evaluation Force agreed to prepare an operational assessment report
    which satisfies the requirements of DoD Instruction 5000.2. In addition, the Navy
    agreed to provide the final operational assessment report to the milestone decision
    authority prior to the FY 2006 program review of the Common Submarine Radio
    Room.


Conclusion
    Operational assessments are conducted early in the program to provide insight
    into potential operational problems and progress toward meeting desired

                                         28
    operational effectiveness and suitability capabilities. Programs should not be
    approved to enter the production and deployment phase of the acquisition process
    until the system has demonstrated during operational testing that the system is
    potentially operationally effective and suitable and will meet the users’ needs.
    Approving systems to enter LRIP and full-rate production before the system has
    demonstrated that it is potentially operationally effective and suitable could result
    in systems being produced that will not meet the users’ needs and require
    additional funds to retrofit the systems that have already been produced. In
    addition, milestone decisions related to deviations from LRIP or full-rate
    production buys, operational assessment, and initial operational test and
    evaluation requirements should be documented in the acquisition decision
    memorandum to document approval of the actions taken.


Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our audit responses are
    in Appendix H.


Recommendations, Management Comments, and Audit
  Response
    Revised, Added, Deleted, and Renumbered Recommendations. The Deputy
    Assistant Secretary of the Navy (Management and Budget) provided management
    comments on behalf of the ASN(RD&A). We added Recommendation B.2. and
    deleted B.6. We renumbered B.2., B.3., and B.4. as B.3., B.4., and B.5.
    accordingly. We revised Recommendation B.3. to clarify the intent of the
    recommendation and Recommendation B.4. to correspond to DoD Instruction
    5000.2 requirements regarding LRIP.

    B. We recommend that the Assistant Secretary of the Navy (Research,
    Development, and Acquisition):

           1. Require program offices to schedule and complete an operational
    assessment prior to the low-rate initial production milestone decision in
    accordance with DoD Instruction 5000.2.

    Management Comments. The Deputy Assistant Secretary of the Navy
    (Management and Budget), responding for the ASN(RD&A), nonconcurred. The
    Deputy Assistant Secretary of the Navy (Management and Budget) believes
    SECNAV Instruction 5000.2C guidance regarding operational assessment
    activities prior to the LRIP is consistent with the DoD Instruction 5000.2. He
    discussed four references within the SECNAV Instruction 5000.2C regarding
    waivers and deferrals. Additionally, the Department of the Navy Acquisition and
    Capabilities Guidebook states that the milestone decision authority should
    determine whether operational test and evaluation is required prior to LRIP for
    non-Office of the Secretary of Defense Test and Evaluation oversight programs.
    The Deputy Assistant Secretary of the Navy (Management and Budget) believes


                                         29
that this guidance gives the milestone decision authority the discretion to
determine whether developmental or integrated test data and reports are adequate
to make an LRIP decision or if additional operational assessment is needed. In
addition, he stated that forcing such programs to include an operational
assessment in the test and evaluation strategy, when program risk can be
adequately managed without the use of an operational assessment, is inefficient
and negates the Chief of Naval Operation’s challenge to the Navy to streamline
test and evaluation. The Navy guidance allows the necessary flexibility to
achieve cost, schedule, and performance. The Deputy Assistant Secretary of the
Navy (Management and Budget) believes that the current guidance is adequate
and should not be changed.

Audit Response. The comments were not responsive to the recommendation.
We request that the Navy reconsider its position and provide comments in
response to the final report.

Allowing the milestone decision authority to determine whether operational test
and evaluation is required prior to LRIP for certain programs is not in compliance
with requirements in DoD Directive 5000.1 and DoD Instruction 5000.2. DoD
Directive 5000.1 requires that test and evaluation be structured to provide
essential information to decision makers to determine whether systems are
operationally effective, suitable, survivable, and safe for the intended use. It also
states that the policies in this Directive apply to all acquisition programs. DoD
Instruction 5000.2 implements policies in DoD Directive 5000.1. It establishes
the requirement that before systems enter into LRIP, the system must demonstrate
acceptable performance in development, test, and evaluation and undergo an
operational assessment.

The four references from the SECNAV 5000.2C discussed in the management
comments do not address the requirement for program offices to schedule and
complete an operational assessment prior to LRIP. Rather, the references discuss
waiver and deferral requirements. In fact, the reference to deferrals states that
deferrals will not normally be granted for an operational assessment prior to
initial operational test and evaluation. The reference to waivers states that
waivers do not change or delay any testing or evaluation of a system.

One of the programs that did not complete an operational assessment before the
LRIP decision, the MH-60R Multi-Mission Helicopter, was an Office of the
Secretary of Defense Test and Evaluation oversight program. In the March 14,
2002, acquisition decision memorandum, the milestone decision authority
required completion of an operational assessment with a conclusion that the
MH-60R was potentially operationally effective and suitable before the decision
review to approve LRIP II. Regardless, the milestone decision authority
approved LRIP II even though the program office had not conducted an
operational assessment.

Further, two other programs which did not undergo an operational assessment
before the LRIP decision subsequently experienced program delays and shortfalls
in demonstrating the ability to satisfy key performance parameters.

       •   On the OSCAR program, program officials canceled the requirement
           to include a developmental and operational test period to look at the

                                     30
           risk associated with the software functionality which would help
           resolve the breach from the approved baseline. The program officials
           felt that software risk was low and could be tested during operational
           evaluation testing. Subsequent to the LRIP decision, the program
           again deviated from its approved baseline to correct anomalies
           discovered during operational evaluation testing, which resulted in a
           1-year delay for the completion of operational evaluation testing.

       •   Program officials for the AN/AES-1 Airborne Laser Mine Detection
           System eliminated the operational assessment because the acquisition
           decision memorandum did not require an operational assessment.
           Program officials believed they could demonstrate the system’s
           readiness to deploy during developmental testing. Subsequent to the
           LRIP decision, the ASN(RD&A) had to waive two key performance
           parameters. Another key performance parameter was reduced to
           60 percent of the threshold because the Fleet and Resource Sponsor
           accepted the current performance limitations and the proposed strategy
           to bring the program to full performance for developmental testing.
           This decision resulted in an approved LRIP with shortfalls in these
           three key performance parameters.

Conducting operational assessments as required before the LRIP decision would
have provided the milestone decision authority with better information
concerning program risks. Program officials could have avoided costs associated
with retrofitting LRIP units already produced.

Because the Navy Acquisition Guidebook is not in compliance with requirements
in DoD Directive 5000.1 and DoD Instruction 5000.2, we added
Recommendation B.2. to update the Navy Acquisition Guidebook.

        2. Update the Navy Acquisition Guidebook to conform to the
requirements in DoD Instruction 5000.2. Specifically, the Navy Acquisition
Guidebook should require that before acquisition programs enter low-rate
initial production, the system must demonstrate acceptable performance in
development test and evaluation and undergo an operational assessment.

       3. Document in the acquisition decision memorandum quantities
exceeding the 10-percent low-rate initial production guideline.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), concurred with
comment. He stated that the ASN(RD&A) will document in the acquisition
decision memorandum justification for exceeding the 10-percent LRIP guideline.
The Deputy Assistant Secretary of the Navy (Management and Budget) stated that
this justification has been reflected in recent acquisition decision memorandums
and the statutorily required Selected Acquisition Reports. The Deputy Assistant
Secretary of the Navy (Management and Budget) also stated that the LRIP statute
(section 2400(a), title 10, United States Code) does not set 10 percent as an LRIP
limitation. Rather, 10 percent is a guideline and a threshold for which further
explanation and documentation in the Selected Acquisition Report is required for
ACAT I programs.


                                    31
Audit Response. In response to management comments, we revised
Recommendation B.3. to indicate that 10 percent is an LRIP guideline rather than
a limitation. The Deputy Assistant Secretary of the Navy (Management and
Budget) comments are responsive.

        4. Assess the cost and benefits of a break in production versus
continuing annual buys when the program office expects to exceed the low-
rate initial production quantity approved at Milestone B.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), nonconcurred. He
stated that the LRIP statute (section 2400(a), title 10, United States Code) does
not set 10 percent as an LRIP limitation. Rather, 10 percent is a guideline and a
threshold for which further explanation and documentation in the Selected
Acquisition Report is required for ACAT I programs. The Deputy Assistant
Secretary of the Navy (Management and Budget) also stated that the LRIP statute
requires the milestone decision authority to establish the LRIP quantity at
Milestone B and the Secretary of Defense to report on the LRIP quantity in the
first system assessment for ACAT I programs. The Deputy Assistant Secretary of
the Navy (Management and Budget) further stated that both of these events
typically occur before the system is ready to proceed to LRIP.

Additionally, the Deputy Assistant Secretary of the Navy (Management and
Budget) stated that the Commander, Operational Test and Evaluation Force’s
evaluation of a system is restricted to whether or not the system under test
satisfies the requirements of the capabilities documents. Test and evaluation is
only one consideration by the milestone decision authority in support of a
production decision. The Deputy Assistant Secretary of the Navy (Management
and Budget) further stated that the Commander, Operational Test and Evaluation
Force has neither connection to, nor understanding of, all acquisition
considerations. Therefore, the Commander is unable to render a complete and
informed recommendation to the milestone decision authority concerning LRIP
and should limit its reporting to system performance, leaving acquisition officials
to resolve production decisions.

Audit Response. We revised Recommendation B.4. to correspond to the
requirement of DoD Instruction 5000.2 regarding LRIP.

DoD Instruction 5000.2 states that LRIP is to result in completion of
manufacturing development to ensure adequate and efficient manufacturing
capability. LRIP also produces the minimum quantity necessary to provide
production articles for initial operational test and evaluation. In addition, DoD
Instruction 5000.2 states, “when approved LRIP quantities are expected to be
exceeded because the program has not yet demonstrated readiness to proceed to
full-rate production, the milestone decision authority shall assess the cost and
benefits of a break in production versus continuing annual buys.” We request that
the Navy provide comments to the revised recommendation in response to the
final report.

        5. Instruct the program manager for AV-8B Harrier II Open Systems
Core Avionics Requirements to provide documentation that the suitability
issues in the Operational Test Report for the AV-8B Harrier II Open

                                    32
Systems Core Avionics Requirements were corrected and that the
corrections were verified by the Commander, Operational Test and
Evaluation Force.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), concurred. He
stated that the deficiencies cited in the operational test report for the AV-8B
Harrier II Open Systems Core Avionics Requirements were reevaluated during
subsequent operational testing of another program. The Commander, Operational
Test and Evaluation Force stated that the four major deficiencies in AV-8B
Harrier II Open Systems Core Avionics Requirements were corrected.

Audit Response. The comments were responsive to the recommendation. We
reviewed a copy of the report, Commander, Operational Test and Evaluation
Force 3980 (S0195-08-OT-IIIA-SCS-H2.0) Ser 573/S001, January 9, 2006. We
determined that the deficiencies cited in the operational test report were corrected.

       6. Require the program manager for the AN/APG-79 Active
Electronically Scanned Array Radar System to obtain a determination from
the Commander, Operational Test and Evaluation Force that the
AN/APG-79 Active Electronically Scanned Array Radar System is
potentially operationally effective and suitable before approving any further
production buys.

Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), nonconcurred. He
stated that the AN/APG-79 Active Electronically Scanned Array Radar System
operational evaluation test was completed in November 2006, and the report will
be published in February 2007. He further stated that the beyond LRIP report
will be issued in March 2007, with the full-rate production decision planned for
April 2007. Additionally, the Deputy Assistant Secretary of the Navy
(Management and Budget) stated that the acquisition decision memorandum for a
fourth LRIP provides exit criteria requiring the system to be operationally
effective and suitable.

Audit Response. Although the Deputy Assistant Secretary of the Navy
(Management and Budget) nonconcurred, the comments were responsive to the
recommendation. We agree that completion of the AN/APG-79 Active
Electronically Scanned Array Radar operational evaluation testing and the
establishment of exit criteria for requiring an operationally effective and suitable
system prior to the full-rate production decision meets the intent of our
recommendation.

       7. Instruct the program manager for the AN/SPY-1D(V) Radar
Upgrade System to provide documentation that the suitability issues in the
Operational Test Report for the AN/SPY-1D(V) Radar Upgrade System were
corrected and that the corrections were verified by the Commander,
Operational Test and Evaluation Force. In addition, we recommend that
closeout of the program not be approved until the requested documentation
is provided.



                                     33
Management Comments. The Deputy Assistant Secretary of the Navy
(Management and Budget), responding for the ASN(RD&A), concurred. He
stated that the program office is implementing a plan to resolve outstanding
suitability deficiencies identified in the operational evaluation report prior to the
Milestone III full-rate production decision review.

Audit Response. The comments were responsive to the recommendation.




                                      34
           C. Reporting in Dashboard
           Program managers for 2 of the 13 Navy programs reviewed did not update
           program information in the Dashboard database on a quarterly basis.
           Additionally, program managers for evolutionary acquisition programs
           could not report each increment separately in Dashboard. These
           conditions existed because the NAE had not issued policy mandating the
           use of Dashboard, and Dashboard did not provide program managers with
           the capability to separately report program information for each increment
           of evolutionary acquisition programs. To be an effective program
           management tool, Dashboard should allow Navy officials to interpret
           current program status and distinguish program information for each
           increment of evolutionary acquisition programs.


Navy Program Management Database
    Dashboard. The NAE has developed a Web-based database called Dashboard.
    Dashboard is a repository of data that documents and supports the completion of
    all acquisition program statutory and regulatory reporting requirements. The
    purpose of Dashboard is to provide Secretary of the Navy, ASN(RD&A), Chief of
    Naval Operations, Systems Commands, PEOs, and the program manager an
    automated tool that helps manage Navy programs. Specifically, Dashboard is
    intended to enable Navy officials to monitor program progress between milestone
    decisions. Dashboard was originally developed for Navy ACAT I and II
    programs in December 2003. The database has evolved to include ACAT III
    programs with the plan of adding ACAT IV program data. According to Navy
    officials, USD(AT&L) has directed that Dashboard information feed into another
    information system managed by USD(AT&L), entitled Defense Acquisition
    Management Information Retrieval. In the future, USD(AT&L) plans to replace
    the Defense Acquisition Executive Summary reports with the Defense
    Acquisition Management Information Retrieval system.


Dashboard Input User Manual
    According to the NAE Dashboard Input User Manual, program managers are
    required to input original program information into the database every quarter.
    However, the Dashboard Input User Manual is not formally signed guidance. As
    a result, it is not mandatory or enforceable. Before official submission to the
    NAE, the program-assigned PEOs review and approve the data. Each Navy
    program reported in Dashboard is assigned a quarterly reporting schedule. The
    quarterly schedules for ACAT I programs are based on the reporting requirement
    in the Defense Acquisition Executive Summary.




                                       35
           Program information reported in Dashboard includes:

                •   10 program assessment areas; 5

                •   milestone and acquisition decision memorandum information;

                •   cost, funding, and contracting information;

                •   key performance parameters;

                •   joint capability areas;

                •   PEO and program manager comments; and

                •   regulatory and statutory document status.


Dashboard Updates
           During the audit, we were given access to the Dashboard system and reviewed
           Dashboard program information for the 13 Navy programs. Program officials for
           2 of the 13 programs did not update Dashboard according to their quarterly
           schedules. However, quarterly Dashboard reporting applies to all ACAT
           programs we reviewed.

           Quarterly Reporting. During our review of the Dashboard system, we
           discovered that the Dashboard reports for the AN/AES-1 Airborne Laser Mine
           Detection System and OSCAR program were not current. At that time, program
           officials had not updated Dashboard information for the AN/AES-1 Airborne
           Laser Mine Detection System in 7 months. Dashboard was not updated quarterly
           even though an overall program status report indicated that some event, action, or
           delay was impairing progress on major program objectives. Dashboard color
           coding guidelines encourage early reporting for programs with this status.
           Similarly, during our review of the Dashboard report for the OSCAR program,
           Dashboard had not been updated in over 6 months.

           Reporting Reliability. Regardless of ACAT level, if a program is not reporting
           quarterly, NAE staff contacts program-assigned Deputy Assistant Secretaries of
           the Navy, PEOs, and program managers to encourage them to report on time.
           However, NAE staff stated that the Navy has no formal written policy mandating
           the use of Dashboard with quarterly updates for all ACAT programs. Without a
           written policy, the Secretary of the Navy, NAE, Chief of Naval Operations,
           Systems Commands, PEOs, and the program managers cannot be assured that the
           information in Dashboard accurately reflects the status of the programs. As a
           result, the Navy is not using Dashboard to its fullest potential as a tool for
           monitoring program progress. Additionally, because USD(AT&L) plans to
           extract information from Dashboard to populate the Defense Acquisition

5
    Performance characteristics, test and evaluation, logistic requirements and readiness objectives, cost,
    funding, schedule, contracts, production, management structure, and interoperability.


                                                        36
    Management Information Retrieval system, it is important that the information be
    current.

    Defense Acquisition Executive Summary Reports. Defense Acquisition
    Executive Summary reports are required for ACAT I programs and are submitted
    to the NAE no later than the 15th day of the program’s designated quarterly
    reporting month. The Defense Acquisition Executive Summary is a multipart
    document that reports program information and assessments; NAE, PEO, and
    program manager comments; and funding data. The Defense Acquisition
    Executive Summary provides an early-warning report to the USD(AT&L), and
    describes actual program problems, warns of potential program problems, and
    describes mitigating actions taken or planned. Because Dashboard is to provide
    program data to the Defense Acquisition Management Information Retrieval
    system, which will replace the need for Defense Acquisition Executive Summary
    reports in the future, it is critical that program information be updated on a
    quarterly basis. Under the current process, outdated information could be
    provided to the USD(AT&L), which would inhibit effective oversight for ACAT I
    programs. The Navy should issue policy that mandates all program offices update
    Dashboard on a quarterly basis.


Evolutionary Acquisition Programs
    Of the 13 Navy programs reviewed, 2 (SEWIP and Common Link Integration
    Processing [CLIP]) were evolutionary acquisition programs. Although
    Dashboard allows the program manager for programs to enter data that tracks
    milestone information, Dashboard does not specifically distinguish information
    about documents for each increment. As a result, program managers must
    overwrite existing program data to update Dashboard when future blocks
    approach milestone decisions. This process makes it difficult for Navy officials
    to distinguish data for each increment of an evolutionary acquisition program,
    which affects how the NAE interprets Dashboard reports and manages the
    programs.

    According to DoD Instruction 5000.2, DoD prefers to procure weapon systems
    using an evolutionary acquisition strategy. An evolutionary approach delivers the
    capability in increments, which allows the Navy to field a system sooner. A Navy
    program can be separately developed in several increments, such as increments A,
    B, and C, and further broken down into subincrements, such as
    subincrements 1 and 2. The figure demonstrates how SEWIP uses the
    evolutionary acquisition approach to structure its program. Each increment and
    subincrement will have separate milestone decisions and program documentation.




                                        37
                                      SEWIP




                 Block 1A            Block 1B            Block 1C
                                                                         Increments


       Electronic
      Surveillance     Improved Control      Subincrements
      Enhancement        and Display


    Structure of the SEWIP Program

            Surface Electronic Warfare Improvement Program. The Dashboard
    report for SEWIP includes data for two of its subincrements: Electronic
    Surveillance Enhancement and Improved Control and Display. Both of these
    subincrements have been approved for Milestone C and the information for both
    subincrements has been reported to Dashboard. However, the Dashboard design
    did not allow the program manager for SEWIP to report information on the two
    subincrements in the appropriate areas. The Dashboard report shows the
    Electronic Surveillance Enhancement acquisition strategy date under a column for
    Milestone C information. However, because Dashboard does not provide a place
    to report the Improved Control and Display Milestone C information, the
    acquisition strategy date is reported in a section for the full-rate production
    information. This case illustrates the need for the NAE to modify Dashboard to
    separate data for each increment.

            Common Link Integration Processing. The Navy is also procuring the
    CLIP program using an evolutionary acquisition approach. Because the
    Dashboard design does not provide separate areas to enter information for each
    increment, the program manager for CLIP tried to clarify by labeling each entry
    as increment 1 or increment 2 data. However, when increment 2 progresses to
    Milestone C, the program manager will have to overwrite the increment 1 data for
    Milestone C. In other words, the program manager will have to overwrite
    existing information with new data to update Dashboard.

Dashboard Modification
    To help Navy officials manage Navy programs, the NAE needs to reconsider the
    current design of Dashboard and the implications on evolutionary acquisition
    programs. As demonstrated by SEWIP and CLIP, the current design will cause a
    loss of historical data for past increments. Additionally, Navy officials will not
    be able to distinguish between important milestone decision dates and data for


                                        38
    each increment. Combining data for different increments prevents Navy officials
    from having full knowledge of the program historical data. If the NAE modifies
    Dashboard to distinguish program data for different increments, the Navy will
    preserve historical and current program information in Dashboard and allow
    evolutionary acquisition programs to clearly report information for different
    program increments.


Recommendations, Management Comments, and Audit
  Response
    C. We recommend that the Assistant Secretary of the Navy (Research,
    Development, and Acquisition):

          1. Issue official guidance to Deputy Assistant Secretaries of the Navy,
    program executive officers, and program managers mandating the use of
    Dashboard with quarterly updates for all ACAT programs.

    Management Comments. The Deputy Assistant Secretary of the Navy
    (Management and Budget), responding for the ASN(RD&A), concurred. He
    stated that the ASN(RD&A) will issue official guidance to the Deputy Assistant
    Secretaries of the Navy, PEOs, and program managers mandating the use of
    Dashboard and requiring updates for all ACAT programs. In a follow-up
    conversation regarding management comments, an ASN(RD&A) representative
    indicated that official Dashboard guidance is expected to be issued by February
    2007.

    Audit Response. The comments were responsive to the recommendation.
    However, during the audit follow-up we will verify that the ASN(RD&A) issued
    official guidance to the Deputy Assistant Secretaries of the Navy, PEOs, and
    program managers mandating the use of Dashboard and requiring updates for all
    ACAT programs.

           2. Modify Dashboard to distinguish different increments for
    evolutionary acquisition programs.

    Management Comments. The Deputy Assistant Secretary of the Navy
    (Management and Budget), responding for the ASN(RD&A), concurred. He
    stated that the ASN(RD&A) will develop the needed modifications to Dashboard
    to allow the different increments of evolutionary acquisition programs to be
    distinguished and reported. In a follow-up conversation regarding management
    comments, an ASN(RD&A) representative indicated that Dashboard should be
    modified to distinguish different increments for evolutionary acquisition
    programs by the end of September 2007.

    Audit Response. The comments were responsive to the recommendation.




                                       39
Appendix A. Scope and Methodology
   We evaluated whether the NAE management oversight and procurement authority
   for ACAT IC and II programs was adequate. To accomplish this objective, we
   determined the effectiveness of the milestone decision authority’s oversight and
   whether program managers provided the milestone decision authority with
   required program documentation in support of program milestone reviews. We
   also evaluated the adequacy of the procurement process used by the Navy
   contracting officers to solicit, negotiate, award, and administer contracts.

   To evaluate the adequacy of the Navy milestone decision authority’s oversight we
   judgmentally selected 13 ACAT IC and II programs for review from a list of
   programs provided by the NAE. The NAE was the milestone decision authority
   for the 13 ACAT IC and II programs selected for review.

   We performed this audit from July 2005 through October 2006, in accordance
   with generally accepted government auditing standards. We reviewed
   documentation dated from November 1988 through October 2006. We
   interviewed NAE staff. We interviewed the different System Commands,
   including Naval Sea Systems Command, Washington Navy Yard,
   Washington, D.C.; Naval Air Systems Command, Patuxent River, Maryland; and
   Space and Naval Warfare Command, San Diego, California. In addition, we
   interviewed and obtained documentation from the PEOs for: Command, Control,
   Communications, Computers, and Intelligence and Space; Littoral and Mine
   Warfare; Integrated Warfare Systems; Air Antisubmarine Warfare, Assault, and
   Special Mission Programs; Tactical Aircraft Programs; and Strike Weapons and
   Unmanned Aviation. We interviewed and obtained documentation from the
   program managers and contracting officers of the 13 programs selected for
   review.

   We reviewed documentation in support of milestone decision reviews that
   include: initial capabilities document; mission needs statements; operational
   requirements documents; capability development documents; capability
   production documents; AoAs; acquisition strategies; systems engineering plans;
   information support plans; command, control, communications, computers, and
   intelligence support plans; acquisition plans; test and evaluation master plans;
   affordability assessments; acquisition program baselines; acquisition decision
   memorandums; program deviation reports; live-fire test and evaluation reports;
   operational evaluation reports; independent cost estimates; beyond low-rate initial
   production report; and milestone decision review briefs.

   To accomplish the audit objectives, we:

      •   reviewed DoD Directive 5000.1, “The Defense Acquisition System,”
          May 12, 2003, as well as previous applicable DoD acquisition guidance,
          to determine DoD policy applicable to all acquisition programs;

      •   reviewed DoD Instruction 5000.2, “Operation of the Defense Acquisition
          System,” May 12, 2003, as well as previous applicable DoD acquisition
          guidance, to determine whether Navy acquisition programs were assigned


                                       40
       the appropriate ACAT and program managers were complying with
       statutory, regulatory, and contract reporting information and milestone
       requirements;

   •   reviewed SECNAV Instruction 5000.2C, “Implementation and Operation
       of the Defense Acquisition System and the Joint Capabilities Integration
       and Development System,” November 19, 2004, to determine whether the
       NAE implemented the procedures in DoD Directive 5000.1 and
       DoD Instruction 5000.2;

   •   reviewed Federal Acquisition Regulation Part 15, “Contracting by
       Negotiation,” March 2005, to determine contracting officer requirements
       for supporting contract price reasonableness determinations in their price
       negotiation memorandums;

   •   determined whether the conditions identified during the audits of the
       Boeing KC-767A tanker aircraft (DoD IG Report Nos. D-2003-129,
       “Assessment of DoD Leasing Actions,” August 29, 2003; and
       D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,”
       March 29, 2004) and the C-130J Aircraft (DoD IG Report No.
       D-2004-102, “Contracting for and Performance of the C-130J Aircraft,”
       July 23, 2004) occurred in the execution of Navy acquisition programs;
       and

   •   reviewed the Navy Dashboard Reporting System for the 13 Navy
       acquisition programs selected for review to determine whether the
       required information was entered into the Dashboard Reporting System
       and whether the Dashboard database was being updated timely.

Program Selection and Limitations. We reviewed 13 Navy programs that were
major weapon systems. As shown in the following table, we limited our review
to five ACAT IC programs and eight ACAT II programs managed by
ASN(RD&A). We further limited our review by selecting programs that had a
recent milestone decision date, were subject to DoD 5000 series of guidance, and
were either in the system development and demonstration phase or production and
deployment phase of the acquisition process. We excluded all space programs
because they may not be subject to the procurement policies in the DoD 5000
series of guidance. In addition, we excluded the following: PEO Submarines
because there were no ACAT IC or II programs; PEO Carriers because they had
only one ACAT IC program, which did not have a recent milestone decision; and
PEO Ships because the only program that met our criteria had been previously
managed by USD(AT&L), who made all milestone decisions. We also excluded
programs for the U.S. Marine Corps. Finally, we did not visit Defense Contract
Management Agency Offices at the contractor locations to review documentation
for acceptance and delivery of the systems from the contractors.




                                    41
                                      Program Selection Process
                                       ACAT IC                                  ACAT II
Navy Systems
Commands/PEOs            Programs    Reviewed      Percentage    Programs     Reviewed      Percentage

SPAWAR                       2            1            50            7             1            14
 PEO C4I and Space            2           1             50            7            1             14
NAVSEA                       6            1            17            13            4            31
  PEO IWS                     1           0              0            6            2             33
  PEO LMW                     1           1            100            7            2            29
  PEO Ships                   2           0             0             0            0            N/A
  Other*                      2           0             0             0            0            N/A
NAVAIR                       11           3            27            16            3            19
  Air 1.0                    0            0            N/A           4             1            25
  PEO A                       3           1             33            2            1            50
  PEO T                       3           1             33            5            1            20
  PEO W                       5           1            20             5            0             0
                Total:       19           5            26            36            8             22

SPAWAR           Space and Naval Warfare Systems Command
NAVSEA          Naval Sea Systems Command
PEO C4I         Program Executive Officer Command, Control, Communications, Computers,
                   and Intelligence
PEO IWS         Program Executive Officer Integrated Warfare Systems
PEO LMW         Program Executive Officer Littoral and Mine Warfare

* Includes two programs managed by Program Executive Office Carriers and Strategic Systems Programs.



        We also limited our review to 13 Navy programs that met certain criteria, such as
        programs that were managed by ASN(RD&A) and subject to DoD 5000 series
        guidance. In addition, the scope of the audit was limited in that we did not review
        the management control program.

        Use of Computer-Processed Data. We did not use computer-processed data to
        perform this audit.

        Use of Technical Assistance. The Deputy Inspector General for Policy and
        Oversight, Quantitative Methods Division developed the criteria for selecting the
        appropriate judgmental sample size of Navy ACAT IC and II programs to be
        reviewed.

        Government Accountability Office High-Risk Area. The Government
        Accountability Office (GAO) has identified several high-risk areas in DoD. This
        report provides coverage of the DoD Weapon Systems Acquisition high-risk area.




                                                 42
Appendix B. Prior Coverage
      During the last 5 years, GAO, DoD IG, and Naval Audit Service issued 12 reports
      that discussed material management control weaknesses associated with the
      acquisition of weapon systems. Unrestricted GAO, DoD IG, and Naval Audit
      Service reports can be accessed at http://www.gao.gov, http://www.dodig.mil/
      audit/reports, and http://www.hq.navy.mil/navalaudit, respectively.

GAO
      GAO Report No. GAO-05-301, “Defense Acquisitions: Assessments of Selected
      Major Weapon Programs,” March 2005

      GAO Report No. GAO-04-393, “Defense Acquisitions: Stronger Management
      Practices Are Needed to Improve DoD’s Software-Intensive Weapon
      Acquisitions,” March 2004

      GAO Report No. GAO-04-53, “Defense Acquisitions: DoD’s Revised Policy
      Emphasizes Best Practices, but More Controls Are Needed,” November 2003

DoD IG
      DoD IG Report No. D-2006-001, “Audit of the Common Submarine Radio
      Room,” October 3, 2005

      DoD IG Report No. D-2005-033. “Implementation of Interoperability and
      Information Assurance Policies for Acquisition of Navy Systems,” February 2,
      2005

      DoD IG Report No. D-2004-109, “Implementation of the DoD Management
      Control Program for Navy Acquisition Category II and III Programs,” August 17,
      2004

      DoD IG Report No. D-2004-108, “Implementation of the DoD Management
      Control Program for Air Force Acquisition Category II and III Programs,”
      August 16, 2004

      DoD IG Report No. D-2004-102, “Contracting for and Performance of the C-130J
      Aircraft,” July 23, 2004

      DoD IG Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker
      Aircraft,” March 29, 2004

      DoD IG Report No. D-2004-047, “Implementation of the DoD Management
      Control Program for Army Acquisition Category II and III Programs,”
      January, 23, 2004




                                        43
     DoD IG Report No. D-2003-004, “Acquisition of the Advanced Deployable
     System,” October 3, 2002

Naval Audit Service
     Naval Audit Service Report No. N2004-0051, “The AN/SPY-1D(V) Upgrade
     Program,” May 19, 2004




                                     44
Appendix C. Glossary
   Acquisition Category. An acquisition category is established to facilitate
   decentralized decision making and execution and compliance with statutory
   requirements. The categories determine the level of review, decision authority,
   and applicable procedures.

   Acquisition Coordination Team. The Acquisition Coordination Team is a team
   of stakeholders from the acquisition community who represent the principal
   advisors to the milestone decision authority. A team must be established for each
   Department of the Navy ACAT IC and II program. The teams are cochaired by
   the cognizant Deputy Assistant Secretary of the Navy or Deputy Assistant
   Secretary of the Navy action officer and the program manager.

   Acquisition Decision Memorandum. The acquisition decision memorandum is
   a memorandum signed by the milestone decision authority. It documents
   decisions made as the result of a milestone decision review or decision review.

   Acquisition Executive. Acquisition executives are the individuals charged with
   the overall acquisition management responsibilities within their respective
   organization.

   Acquisition Program Baseline. The acquisition program baseline prescribes the
   key cost, schedule, and performance constraints that the program must achieve
   before the next milestone decision review in the acquisition process.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints. It is the framework for planning, directing, contracting for,
   and managing a program. It provides a master schedule for research,
   development, testing, production, fielding, modification, postproduction
   management, and other activities essential for program success.

   Analysis of Alternatives. An analysis of alternatives is the evaluation of the
   operational effectiveness, operational suitability, and estimated costs of
   alternative systems to meet a mission capability. The analysis assesses the
   advantages and disadvantages of alternative systems being considered to satisfy a
   validated need, including the sensitivity of each alternative to possible changes in
   key assumptions or variables.

   Capability Development Document. A capability development document
   captures the information necessary to develop a proposed program, normally
   using an evolutionary acquisition strategy. The document outlines an affordable
   increment of militarily useful, logistically supportable, and technically mature
   capability. It supports a system development and demonstration program decision
   review.

   Capability Production Document. A capability production document addresses
   the production elements specific to a single increment of an acquisition program.
   The Deputy Chief of Naval Operations (Resources, Requirements, and


                                        45
Assessments) must validate and approve the document before a production and
deployment decision review. The refinement of performance attributes and key
performance parameters is the most significant difference between the capability
development document and the capability production document.

Command, Control, Communications, Computers, and Intelligence Support
Plan. The command, control, communications, computers, and intelligence
support plan is a required document for all acquisition programs that connect in
any way to the communications and information infrastructure, and includes both
information technology systems and National Security System programs. The
plan identifies command, control, communications, computers, intelligence,
surveillance, and reconnaissance needs, dependencies, and interfaces. It focuses
on interoperability, supportability, and sufficiency concerns throughout a
program’s life cycle.

Commander, Operational Test and Evaluation Force. The Office of
Commander, Operational Test and Evaluation Force is the designated Operational
Test Agency for the United States Navy and Marine Corps aviation programs
assigned to Chief of Naval Operations sponsorship. The Commander,
Operational Test and Evaluation Force plans, conducts, evaluates, and reports the
operational test and evaluation of ACAT I and II programs.

Developmental Test and Evaluation. Developmental test and evaluation is any
engineering test used to verify status of weapon systems technical progress, verify
that design risks are minimized, substantiate achievement of contract technical
performance, and certify readiness for initial operational testing. Development
tests generally require instrumentation and measurements and are accomplished
by engineers, technicians, or soldier operator-maintainer test personnel in a
controlled environment to facilitate analysis of failures.

Director Test and Evaluation Oversight List. The annual Office of the
Secretary of Defense Test and Evaluation Oversight List identifies those
Department of the Navy programs subject to Office of the Secretary of Defense
Test and Evaluation oversight. ACAT I, ACAT II, and programs requiring
live-fire test and evaluation are generally included in oversight.

Engineering Development Model. An engineering development model is a
production representative system acquired during the system development and
demonstration phase of the acquisition process. Engineering development models
may be used to demonstrate maturing performance via an operational assessment
or operational testing.

Evolutionary Acquisition Programs. Evolutionary acquisition is the preferred
DoD strategy for rapid acquisition of mature technology for the user. An
evolutionary approach delivers capability in increments, recognizing, up front, the
need for future capability improvements. The objective is to balance needs and
available capability with resources and to put capability into the hands of the user
quickly.

Full-Rate Production. Full-rate production represents contracting for economic
production quantities following stabilization of the system design and validation
of the production process.

                                    46
Information Support Plan. The information support plan (formerly known as
the command, control, communications, computers, and intelligence support plan)
identifies and documents information technology and national security system
needs, objectives, and interface requirements in sufficient detail to enable testing
and verification of requirements. The information support plan also contains
interface descriptions, infrastructure and support requirements, standards profiles,
measures of performance, and interoperability shortfalls.

Inventory Objective. Inventory objective is the quantity of an item of material
that will satisfy the military requirement under specified mobilization conditions.

Key Performance Parameter. Key performance parameters are those minimum
attributes or characteristics considered most essential for an effective military
capability. For capabilities documents, key performance parameters are validated
by the Joint Requirements Oversight Council for joint requirements documents,
by the Functional Capabilities Board for requirements documents that jointly
affect Services, and by the DoD Component for requirements documents that are
prepared independently by a Service.

Low-Rate Initial Production. Low-rate initial production is the first segment of
the production and deployment phase. Its purpose is to establish an initial
production base for the system, permit an orderly ramp-up sufficient to lead to a
smooth transition to full-rate production, and to provide production-representative
articles for initial operational test and evaluation and live-fire testing. For major
Defense acquisition programs, low-rate initial production quantities in excess of
10 percent of the acquisition objective must be reported in the Selected
Acquisition Report.

Milestone Decision Authority. The milestone decision authority is the
designated individual with overall responsibility for a program. The milestone
decision authority approves program initiation and entry of an acquisition
program into the next phase of the acquisition process. The milestone decision
authority is accountable for cost, schedule, and performance reporting to higher
authority, including congressional reporting.

Operational Effectiveness. Operational effectiveness is a measure of the overall
ability of a system to accomplish a mission when used by representative
personnel in the environment planned or expected for operational employment of
the system.

Operational Requirements Document. The operational requirements document
is a legacy document that contains performance parameters for the proposed
concept or system. Operational requirements documents were accepted for Joint
Staff review until late December 2003. Capability development documents and




                                     47
capability production documents developed in accordance with Chairman of the
Joint Chiefs of Staff Instruction 3170.01C, “Joint Capabilities Integration and
Development System,” June 24, 2003, replaced the operational requirements
document. The instruction allowed a validated and approved operational
requirements document to be used to support program initiation and the low-rate
initial production decision until late June 2005.

Operational Suitability. Operational suitability is the degree to which a system
can be placed and sustained satisfactorily in field use.

Operational Test and Evaluation. Operational test and evaluation is the field
test, under realistic conditions, of any item (or key component) of weapons,
equipment, or munitions to determine its effectiveness and suitability for use in
combat by typical military users.

Program Executive Officer. A program executive officer is a military or
civilian official who has the responsibility for directing several major Defense
acquisition programs and for directing major and nonmajor system acquisition
programs. A program executive officer has no other command or staff
responsibilities within the Component, and reports to and receives guidance and
direction from only the DoD Component Acquisition Executive.

Program Manager. The program manager is a designated individual with
responsibility for and authority to accomplish program objectives for
development, production, and sustainment to meet the users’ operational needs.
The program manager is accountable for cost, schedule, and performance
reporting to the milestone decision authority.

Research, Development, Test, and Evaluation. Research, development, test,
and evaluation are activities for developing a new system or expanding the
performance of fielded systems.

System Development and Demonstration. The system development and
demonstration phase (Milestone B) is the third phase of the DoD system
acquisition process and consists of system integration and system demonstration.
This phase also contains a design readiness review at the conclusion of the system
integration.

Systems Engineering Plan. The systems engineering plan describes the
program’s overall technical approach, including processes, resources, metrics, and
applicable performance incentives. It also states the timing, conduct, and success
criteria of technical reviews.

Test and Evaluation Master Plan. The test and evaluation master plan
documents the overall structure and objectives of the test and evaluation program.
It provides a framework for generating detailed test and evaluation plans and for
documenting schedule and resource implications associated with the test and
evaluation program. The test and evaluation master plan identifies the necessary
developmental test and evaluation, operational test and evaluation, and live-fire
test and evaluation activities.



                                    48
Test Report. A test report formally documents the results, conclusions, and
recommendations that result from each phase of developmental testing and
operational testing.

Threshold. A threshold is a minimum acceptable operational value below which
the utility of the system becomes questionable.




                                   49
Appendix D. Comparison of Conditions Identified
            on Audits of Boeing KC-767A and
            C-130J Aircraft
   As a result of audits of the Boeing KC-767A tanker aircraft (DoD IG Report Nos.
   D-2003-129, “Assessment of DoD Leasing Actions,” August 29, 2003; and
   D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,” March 29,
   2004) and the C-130J aircraft (DoD IG Report No. D-2004-102, “Contracting for
   and Performance of the C-130J Aircraft,” July 23, 2004), the DoD IG initiated the
   series of audits of the Service Acquisition Executives to determine whether
   management oversight problems identified in the referenced reports were more
   widely occurring across the Military Departments. At the April 14, 2005, hearing
   on management and oversight of Air Force acquisition programs, the Senate
   Armed Services Subcommittee also expressed interest in the results of the
   DoD IG audits concerning whether similar conditions were occurring within the
   other Services. The results of the review of 13 Navy ACAT IC and II programs
   as related to the 15 conditions identified in the earlier audits of the two Air Force
   acquisition programs follows.

   1. Condition: The former Deputy Assistant Secretary of the Air Force
   (Acquisition) used her position as the milestone decision authority and head of
   Air Force contracting to conduct and inappropriately influence the results of the
   contract negotiations with Boeing to acquire Boeing KC-767A tanker aircraft.

   Question: Did the NAEs use their positions as milestone decision authorities to
   conduct and inappropriately influence the results of contractor selection and
   negotiations for the 13 programs selected for review?

   Results: For the 13 programs reviewed, we did not find evidence that the NAEs
   used their positions to inappropriately influence the results of contractor selection
   and negotiations.

   2. Condition: On both the Boeing KC-767A tanker aircraft and the C-130J
   programs, Air Force contracting officers did not properly justify the use of a
   commercial item acquisition strategy. The Federal Acquisition Regulation (FAR)
   states that a commercial item is any item, other than real property, that is used
   customarily by the general public or by nongovernmental entities for purposes
   other than governmental purposes. Further, commercial items are those that have
   been sold, leased, or licensed to the general public; or have been offered for sale,
   lease, or license to the general public.

   Question: Did Navy contracting officers use and properly justify the use of a
   commercial item acquisition strategy for the 13 programs selected for review?

   Results: For the 13 programs reviewed, Navy contracting officers did not use a
   commercial item acquisition strategy. Navy contracting officers included FAR
   Subpart 15, “Contracting by Negotiation,” as part of their acquisition planning.


                                        50
3. Condition: On the C-130J program, the Air Force conditionally accepted the
delivery of C-130J aircraft that did not meet commercial contract specifications or
operational requirements.

Question: Did the Navy acquisition officials conditionally accept delivery of
items before the items met contract specifications and operational requirements
for the 13 programs selected for review?

Results: As mentioned in Appendix A, we did not visit Defense Contract
Management Agency offices at the contractor locations or otherwise determine
whether the systems for the 13 programs reviewed had been accepted before
meeting contract specifications or operational requirements.

4. Condition: On the C-130J program, the Air Force contracting officer did not
adequately manage the financing of the contract. This inadequate management
resulted in the Air Force paying the contractor 85 percent of the price of the
aircraft before aircraft acceptance inspection and 99 percent of the price of the
aircraft on conditional acceptance and delivery of noncompliant aircraft.

Question: Did Navy contracting officers properly manage the financing of
deliverable items on contracts for the 13 programs selected for review?

Results: On 5 of 11 production contracts, the Navy contracting officers included
FAR Clause 52.232-16, “Progress Payments,” or Defense Federal Acquisition
Regulation Supplement Clause 252.232-7004, “DoD Progress Payment Rates,”
which limited the contractor financing to 80 percent or less of the contract price
before acceptance of the deliverable items. The remaining six programs did not
include either clause for progress payments, and we did not determine the manner
in which financing occurred.

5. Condition: On the Boeing KC-767A tanker aircraft program, the Air Force
contracting officer negotiated a prohibited cost-plus-a-percentage-of-cost
contract. Cost-plus-a-percentage-of-cost contracts are prohibited by Section
2306(a), title 10, United States Code. A cost-plus-a-percentage-of-cost contract is
a cost reimbursement contract that provides a contractor a fee based as a specified
percentage of the contractor’s actual cost of performing the work. According to
GAO, a cost-plus-a-percentage-of-cost contract occurs when contracting officers
award a contract for which:

   •   payment for profit is based on a predetermined percentage rate,

   •   a predetermined percentage rate applies to the actual cost of work
       performed,

   •   contractor entitlement is uncertain at the time of contracting,

   •   contractor entitlement increases commensurately with increased
       performance costs, and

   •   Government audit rights are excluded.



                                    51
Question: Did Navy contracting officers use a prohibited cost-plus-a-percentage-
of-cost system of contracting through the use of limitation of earnings clauses and
the exclusion of Government audit rights on the 13 programs selected for review?

Results: We did not identify any instances where the Navy contracting officers
structured and awarded a cost-plus-a-percentage-of-cost contract. We reviewed
the basic contract clauses and the business clearance memorandums for the
13 Navy programs. None of the 13 acquisition programs in our review used a
cost-plus-a-percentage-of-cost contract. All 13 contracts we reviewed included
the Government audit rights clause as part of contract.

6. Condition: On the Boeing KC-767A tanker aircraft program, the proposed
lease did not meet all of the criteria requirements for an operating lease. Further,
the proposed lease would have cost the Air Force more than purchasing the
aircraft. Office of Management and Budget Circular A-11, “Preparation,
Submission, and Execution of the Budget,” June 2006, states that an operating
lease must meet the following six requirements:

   •   The asset is a general-purpose asset rather than being for a special purpose
       of the Government and is not built to unique specification of the
       Government as a lessee.

   •   There is a private-sector market for the asset.

   •   The present value of the minimum lease payments over the life of the
       lease does not exceed 90 percent of the fair market value of the asset at the
       beginning of the lease term.

   •   The lease does not contain a bargain-price purchase option.

   •   Ownership of the asset remains with the lessor during the term of the lease
       and is not transferred to the Government at or shortly after the end of the
       lease term.

   •   The lease term does not exceed 75 percent of the estimated economic life
       of the asset.

Question: Did Navy contracting officers use and properly justify the use of
leases in accordance with Office of Management and Budget Circular A-11 on the
13 programs selected for review?

Results: The Navy contracting officers did not use leases for the 13 programs
reviewed.

7. Condition: On the Boeing KC-767A tanker aircraft program, the Air Force
contracting officer did not require Boeing to submit cost and pricing data related
to prior commercial sales to enable the Air Force contracting officer to determine
price reasonableness.

Question: Did Navy contracting officers require contractors to submit cost or
pricing data to enable the contracting officers to determine price reasonableness
for the 13 programs selected for review?

                                     52
Results: As indicated in price negotiation memorandums for 8 of 13 programs
reviewed, Navy contracting officers required and relied on cost or pricing data to
negotiate the contract price and support a price reasonableness determination.
Three of the 13 were exempt from using cost or pricing data and 1 program did
not require cost and pricing data due to having significant historical cost and
pricing data. The remaining program planned to use cost or pricing data when the
contract was definitized.

8. Condition: The Assessment of Leasing Actions report stated that the
Air Force took full advantage of Section 8159 of the DoD Appropriations Act for
FY 2002 that authorized the Air Force to lease not more than 100 general purpose
Boeing KC-767A aircraft. With this authority, the Air Force did not prepare a
formal analysis of alternatives to determine the best possible system solution to
fulfill its need for a tanker aircraft replacement. DoD Instruction 5000.2 requires
that an analysis of alternatives be completed and approved by the Director,
Program Analysis and Evaluation for major Defense acquisition programs. The
analysis of alternatives is an evaluation of the system’s operational effectiveness,
operational suitability, and estimated costs of alternative systems to meet a
mission capability. The analysis assesses the advantages and disadvantages of
alternatives being considered to satisfy capabilities, including the sensitivity of
each alternative to possible changes in key assumptions or variables.

Question: Did the Navy prepare an analysis of alternatives to support the
acquisition of the 13 programs selected for review?

Results: Of the 13 programs reviewed, 7 had completed an analysis of
alternatives or cost and operational effectiveness analysis in accordance with DoD
Instruction 5000.2 and Secretary of the Navy Instruction 5000.2C. Of the
remaining six programs, one program had an analysis of alternatives or cost and
operational effectiveness analysis but did not have signature pages to substantiate
that the documents had been approved by the NAE. One program had an analysis
of alternatives but it was not properly approved. Program officials for four
programs were unable to provide their analyses of alternatives or cost and
operational effectiveness analyses.

9. Condition: On the Boeing KC-767A tanker aircraft program, the KC-767A
System Program Office did not establish a disciplined acquisition strategy to
ensure that the warfighters’ operational requirements were being satisfied. The
Office of Management and Budget Circular A-109, “Major System Acquisitions,”
April 5, 1976, states that Federal agencies should tailor an acquisition strategy for
each major system to ensure that each major system fulfills a mission need and
operates effectively in its intended environment. DoD Instruction 5000.2 requires
the program manager to prepare and the milestone decision authority to approve
an acquisition strategy by the system development and demonstration phase of the
acquisition process.

Question: Did Navy program managers prepare acquisition strategies in
accordance with requirements in Office of Management and Budget
Circular A-109 and DoD Instruction 5000.2 for the 13 programs selected for
review?



                                     53
Results: Of the 13 programs reviewed, 9 had completed acquisition strategies in
accordance with DoD Instruction 5000.2. As discussed in finding A, program
managers for the other four programs either did not fulfill the requirements for the
acquisition strategy as listed in DoD Instruction 5000.2 or did not provide the
auditors with their program’s acquisition strategy.

10. Condition: On the Boeing KC-767A tanker aircraft program, the program
manager did not plan to complete an information support plan (formerly referred
to as a command, control, communications, computers, and intelligence support
plan) before the milestone decision to acquire the first 100 tanker aircraft. An
information support plan is needed to identify, plan, and manage command,
control, communications, computers, and intelligence supportability needs;
dependencies between systems; and interface and interoperability requirements.
DoD Instruction 5000.2 requires program managers to prepare an information
support plan before the decision reviews for entering into the system development
and demonstration and the production and deployment phases of the acquisition
process.

Question: Did the Navy milestone decision authority require program managers
to prepare and obtain approval for information support plans before the system
development and demonstration and production and deployment phases of the
acquisition process for the 13 programs selected for review?

Results: Program officials for 8 of the 13 programs had completed an
information support plan or a command, control, communications, computers, and
intelligence support plan and obtained approval before the system development
and demonstration or production and deployment phases of the acquisition
process. For three of the remaining programs, one received a waiver to the
development of the information support plan, and two followed the guidance
provided to them by the Office of the Assistant Secretary of Defense (Networks
and Information Integration)/Chief Information Officer. As discussed in finding
A, the remaining two programs did not fulfill the requirements for preparing an
information support plan or command, control, communications, computers, and
intelligence support plan.

11. Condition: The operational requirements document developed by the
Air Force did not require that the first 100 Boeing KC-767A tanker aircraft
acquired meet warfighter requirements for interoperability. As a result, the
aircraft acquired would not have fully met the key performance parameter for
interoperability.

Question: Did the NAE require program managers to meet a net-ready (formerly
interoperability) key performance parameter in the capability development
documents and capability production documents?

Results: Of the 13 programs reviewed, 12 met the requirement to have key
performance parameters for net-readiness or interoperability in the capability
development documents and capability production documents. One of the
13 programs did not have key performance parameters for net-readiness or
interoperability because the program did not have a requirements document (see
finding A).


                                    54
12. Condition: The Air Force did not ensure that warfighter operational
requirements were adequately established in the contract specifications for the
Boeing KC-767A tanker program. The Air Force also accepted C-130J aircraft
that did not meet contract specifications and therefore could not perform its
operation mission.

Question: Did Navy program managers ensure that contracting officers included
the requirements identified in the operational requirements or capabilities
development documents in contract specification before awarding development
contracts for the five Navy weapon systems reviewed in the system development
and demonstration phase of the acquisition process?

Results: For four of the five Navy programs that were in the system development
and demonstration phase of the acquisition process, program managers had
verified that contracting officers included requirements identified in operational
requirements documents or capabilities development documents in system
contract specifications. However, for the Navy Advanced Extremely High
Frequency Multiband Terminal, we were unable to verify whether the contractors
included the requirements identified in the operational requirements documents in
the system contract specifications because the program officials did not respond
to our requests for information.

13. Condition: The Air Force did not comply with statutory provisions for
determining the operational effectiveness, suitability, and survivability of the
Boeing KC-767A tanker aircraft before proceeding beyond low-rate initial
production and committing to the subsequent production of all 100 KC-767A
tanker aircraft. Section 2399, title 10, United States Code states that a major
Defense acquisition program may not proceed beyond low-rate initial production
until initial operational test and evaluation of the program is completed. Further,
section 2366, title 10, United States Code states that a covered system (a system
under the oversight of the Director, Operational Test and Evaluation) may not
proceed beyond low-rate initial production until realistic survivability testing of
the system has been completed.

Question: Did the Navy milestone decision authorities ensure that initial
operational test and evaluation was completed before they approved the four
Navy acquisition programs for full-rate production? Also, did the milestone
decision authority ensure that survivability testing was planned and conducted for
the two covered acquisition programs?

Results: The Navy milestone decision authorities ensured that program managers
for the four acquisition programs in production completed initial operation test
and evaluation before approving the programs for full-rate production. Further,
Navy milestone decision authorities ensured that program managers completed
survivability testing for two of four systems before approving the acquisition
programs for full-rate production. Two of the four systems were not covered;
therefore, the Director, Operational Test and Evaluation did not require program
officials to conduct survivability testing.

14. Condition: Costly contract modifications to convert the commercial aircraft
to the KC-767A military configuration would occur because the KC-767A
System Program Office did not fully develop systems engineering requirements.

                                     55
Question: Did Navy program managers prepare systems engineering plans for
the 13 Navy programs reviewed?

Results: According to the Under Secretary of Defense (Acquisition, Technology,
and Logistics) memorandum, “Policy for Systems Engineering in DoD,”
February 20, 2004, 8 of the 13 programs should have developed a systems
engineering plan. Six of eight programs had a systems engineering plan in
accordance with the memorandum while two of the eight programs did not have
properly approved systems engineering plans. The memorandum did not apply to
the remaining five programs because these programs had not had a milestone
decision review since the memorandum was issued or were already in low-rate
initial production or beyond when the memorandum was issued.

15. Condition: On the Boeing KC-767A tanker aircraft and the C-130J
programs, the Assistant Secretary of the Air Force (Acquisition) did not hold
program managers accountable for completing statutory and regulatory
requirements. The DoD IG Report No. D-2004-064, “Acquisition of the Boeing
KC-767A Tanker Aircraft,” March 29, 2004, cited requirements in the areas of
commercial items; two statutory testing requirements; cost-plus-a-percentage-of-
cost system of contracting; leases; and acquisition documentation, such as the
acquisition strategy and requirements documents. DoD IG Report No.
D-2004-102, “Contracting for and Performance of the C-130J Aircraft,” July 23,
2004, cited requirements in the areas of commercial items, multiyear contract
award, and testing.

Question: Did the Navy milestone decision authority hold program managers
accountable for completing statutory and regulatory document requirements
before milestone decisions and program reviews for the 13 programs selected for
review?

Results: Three of 13 programs reviewed had completed statutory and regulatory
documentation requirements in accordance with DoD Instruction 5000.2. As
discussed in finding A, 10 of the 13 programs reviewed either did not fulfill the
requirements for the documentation as listed in DoD Instruction 5000.2 or could
not provide the auditors with the programs’ relevant documentation.




                                    56
Appendix E. Overview of the 13 Navy Programs

                                                                                                                                                                                                   GWOT
                                                                          Last Milestone                                    RDT&E                Procurement               Total Cost             Funding          DOT&E       Urgent
Program Name                                         Phase                  Decision                    ACAT              (in millions)          (in millions)            (in millions)         (in millions)      Oversight   Need

Advanced Deployable System                           SD&D               December 22, 2005                 IC                $788.33                $667.29                  $1,455.62                0               Yes        No
AN/APG-79 Active Electronically Scanned
  Array Radar System                             P&D/LRIP IV        Jan. 29, 2004/Feb. 28, 2006           IC                 641.34                2,057.75                 2,699.09                 0               Yes        No

MH-60R Multi-Mission Helicopter                    P&D/FRP                March 31, 2006                  IC                1,670.9                10,018.8                 11,689.70                0               Yes        No
Navy Advanced Extremely High Frequency
  Multiband Terminal                                 SD&D                October 21, 2003                 IC                 407.15                 1166.2                  1,573.35                 0               Yes        No

Tactical Tomahawk                                  P&D/FRP                August 3, 2004                  IC                 756.8                 4,151.78                 4,908.58               $75.9             Yes        No

Advanced Arresting Gear                              SD&D                February 10, 2005                 II                196.56                  601.5                   798.06                  0                No        No
AN/AES-1 Airborne Laser Mine Detection
  System                                           P&D/LRIP                June 14, 2005                   II                115.58                 327.61                   443.19                  0                No        No

AN/AQS-20A Sonar Mine Detecting Set                P&D/LRIP                May 10, 2005                    II                210.32                1612.36                  1,822.68                 0                No        No

AN/SPY-1D(V) Radar Upgrade                          LRIP II 1       Sept. 29, 1993/Dec. 21, 2001           II                290.24                5983.15                  6,273.39                 0               Yes        No
AV-8B Harrier II Open Systems Core
 Avionics Requirements                             P&D/FRP                August 16, 2004                  II                351.65                 262.28                   613.93                  0                No        No

Common Link Integration Processing                  SD&D 2                 June 1, 2005                    II                330.58                    0                     330.58                  0                No        No
Mark XIIA Mode 5 Identification Friend or
  Foe Upgrade                                        SD&D                 August 7, 2003                   II                253.20                 628.31                   881.51                  0               Yes        No
Surface Electronic Warfare Improvement
  Program                                         P&D/LRIP 3            December 23, 2005                  II                156.83                 766.94                   923.77                  0               Yes        No

                                                                                                                            $6,169.5              $28,244.0                 $34,413.5              $75.9

DOT&E              Director, Operational Test and Evaluation                                                         Note: All funding figures converted to FY 2006 dollars based on program’s base year amounts
FRP                Full-Rate Production
GWOT               Global War on Terrorism
LRIP               Low-Rate Initial Production
P&D                Production and Deployment
RDT&E              Research, Development, Test, and Evaluation
SD&D               System Development and Demonstration Phase



1
    At the time of the last milestone for the AN/SPY-1 Radar Upgrade program, September 29, 1993, LRIP was not yet considered a P&D phase.
2
    Common Link Integration Processing program is an evolutionary acquisition program. Increment 1 is currently in the SD&D phase.
3
    Surface Electronic Warfare Improvement Program is an evolutionary acquisition program. The two subincrements of Block 1A are currently in the P&D/LRIP phase.



                                                                                                                                          57
Appendix F. Description of the 13 Navy Programs

Acquisition Category IC Programs
    Advanced Deployable System. The Advanced Deployable System program is
    under the PEO for Littoral and Mine Warfare. It is a rapidly deployable passive
    acoustic undersea surveillance system designed to detect and track modern diesel-
    electric submarines and surface craft in the shallow waters of the littoral regions
    of the world. The NAE approved the program for system development and
    demonstration on December 22, 2005.

    AN/APG-79 Active Electronically Scanned Array Radar System. The
    AN/APG-79 Active Electronically Scanned Array Radar System program is under
    the PEO for Tactical Aircraft Programs. It is the primary search, track, and
    weapons control radar for the F/A-18E/F aircraft. The system’s antenna is an
    electronically scanned antenna composed of many active transmitting and
    receiving elements. A computer controls the antenna elements individually, or in
    groups, to electronically steer a radar beam for various tactical purposes. The
    NAE approved the program low-rate initial production phase on July 21, 2003.
    The system was approved for a fourth low-rate initial production on
    February 28, 2006.

    MH-60R Multi-Mission Helicopter. The MH-60R program is under the PEO
    for Air Antisubmarine Warfare, Assault, and Special Mission Programs. The
    program is an upgrade that provides critical improvements to an existing aircraft.
    The SH-60B and SH-60F aircraft will be replaced with a new air vehicle and
    upgraded mission avionics in a configuration designated as the MH-60R Weapon
    System. The NAE approved the program for full-rate production phase on
    March 31, 2006.

    Navy Advanced Extremely High Frequency Multiband Terminal. The Navy
    Advanced Extremely High Frequency Multiband Terminal program is under the
    PEO for Command, Control, Communications, Computers, and Intelligence and
    Space. The program is the next generation Navy Extremely High Frequency
    terminal. It will provide deployed Naval commanders with secure command and
    control capability via Advanced Extremely High Frequency satellites, as well as
    other military and commercial satellites from anywhere in the world. The NAE
    approved the program for system development and demonstration on
    October 21, 2003.

    Tactical Tomahawk. The Tactical Tomahawk program is under the PEO for
    Strike Weapons and Unmanned Aviation. The Tactical Tomahawk program
    replaces the Tomahawk Baseline Improvement Program by providing a more
    responsive, flexible, and lower cost missile to meet the evolving tactical scenarios
    of the future. Block IV provides significantly improved navigational accuracy in
    the Global Positioning System jamming environment, unique in-flight retargeting
    capability, and the transmission of battle damage indication imagery through a



                                         58
    two-way satellite data link. The NAE approved the program for full-rate
    production on August 3, 2004.


Acquisition Category II Programs
    Advanced Arresting Gear. The Advanced Arresting Gear program is under the
    Assistant Commander for Acquisition, Air 1.0. The program is a new aircraft
    carrier arresting gear system to replace the MK 7 Mod 3 arresting gear. It will
    provide new operational capabilities, including the ability to safely and efficiently
    recover both heavier and faster aircraft as well as lighter-weight unmanned air
    vehicles that may enter the Fleet in the coming years. The NAE approved the
    program for system development and demonstration on February 10, 2005.

    AN/AES-1 Airborne Laser Mine Detection System. The AN/AES-1 Airborne
    Laser Mine Detection System program is under the PEO for Littoral and Mine
    Warfare. The system detects, classifies, and localizes floating and near-surface
    moored sea mines. The system is deployed from the MH-60S helicopter and will
    provide organic airborne mine defense to the battle force. The NAE approved the
    program for low-rate initial production on June 14, 2005.

    AN/AQS-20A Sonar Mine Detecting Set. The AN/AQS-20A Sonar Mine
    Detecting Set is under the PEO for Littoral and Mine Warfare. It is an upgrade to
    the AN/AQS-20 program. It can detect, localize, and classify bottom, close-
    tethered, and volume mines. The AN/AQS-20A Sonar Mine Detecting Set
    supports the carrier strike group and the expeditionary strike group. The NAE
    approved the program for low-rate initial production on May 10, 2005.

    AN/SPY-1D(V) Radar Upgrade. The AN/SPY-1D(V) system reports through
    the PEO for Integrated Warfare Systems. The NAE approved the system for
    low-rate initial production on January 24, 1997. The AN/SPY-1D(V) system was
    approved for a second low-rate initial production on December 21, 2001. The
    system is an upgrade to the AN/SPY-1D to improve performance in adverse
    natural environments and in electronic countermeasures. The AN/SPY-1D(V)
    system is a component of the Aegis weapon system.

    AV-8B Harrier Open Systems Core Avionics Requirement. The OSCAR
    program is under the PEO for Air Antisubmarine Warfare, Assault, and Special
    Mission Programs. The OSCAR program is an enhancement to the AV-8B
    aircraft avionics suite. It consists of new avionics hardware and software,
    improved software for a limited portion of the existing avionics subsystems and
    Mission Support System, and integration of two new weapons, the Advanced
    Medium-Range Air-to-Air Missile and the Joint Direct Attack Munition. The
    NAE approved the program for full-rate production on August 16, 2004.

    Common Link Integration Processing. The CLIP program is under the PEO for
    Command, Control, Communications, Computers, and Intelligence and Space.
    CLIP will enable several systems to transition to Network Centric Warfare. CLIP
    provides for an integration approach that enhances implementation of the Joint
    Tactical Radio System requirements through the processing of the tactical data
    link messages, provides gateway functionality, and assists in enabling the


                                         59
Network Centric Enterprise Services capabilities as an element of the Global
Information Grid. The NAE approved the program for system development and
demonstration on June 1, 2005.

Mark XIIA Mode 5 Identification Friend or Foe Upgrade. The Mode 5
program is under the PEO for Tactical Aircraft Programs. Mode 5 is an encrypted
waveform that provides the warfighter with positive, secure, and reliable line-of-
sight identification of friendly aircraft and ships. The new capability to identify
friend or foe will better support the Navy in four operational environments: air-to-
air, surface-to-air, air-to-surface, and surface-to-surface. Mode 5 is an upgrade to
the Mark XII Identification Friend or Foe. The NAE approved the program for
system development and demonstration on August 7, 2003.

Surface Electronic Warfare Improvement Program. SEWIP is under the PEO
for Integrated Warfare Systems, Above Water Sensors. SEWIP is an upgrade to
the existing AN/SLQ-32 (V) Electronic Warfare System. SEWIP includes
multiple block upgrades. Block 1A consists of two subblocks: the first was for an
updated computer processor and stand-alone electronic surveillance enhancement
and the second was for the replacement of the existing display control console
with an improved control and display. The NAE approved the first subblock for
low-rate initial production on March 10, 2005, and the second subblock for
low-rate initial production on December 23, 2005.




                                    60
Appendix G. Other Matters of Interest
   Acquisition Coordination Teams. SECNAV Instruction 5000.2C,
   “Implementation and Operation of the Defense Acquisition System and the Joint
   Capabilities Integration and Development System,” November 19, 2004, requires
   that an Acquisition Coordination Team be established for each Navy ACAT IC
   and II program. The 13 Navy programs reviewed had inconsistencies in the
   establishment of Acquisition Coordination Teams. Specifically, 4 of the
   13 programs reviewed did not have an established Acquisition Coordination
   Team. One program, Harrier II AV-8B OSCAR, did not have an Acquisition
   Coordination Team or a group with a similar function. The program offices of the
   remaining three programs without an Acquisition Coordination Team (Advanced
   Arresting Gear, APG-79 Active Electronically Scanned Array Radar System, and
   Tactical Tomahawk) used what they considered to be a comparable functional
   group: Working Integrated Product Teams or Integrating Integrated Product
   Teams. SECNAV 5000.2C distinguishes between Working Integrated Product
   Teams, Integrating Integrated Product Teams, and Acquisition Coordination
   Teams based on the application and functionality of each group. The Working
   Integrated Product Teams and Integrating Integrated Product Teams are generally
   formulated to address the needs of various functional areas (for example, cost,
   performance, design, test, and contracting) or specific issues of the program.
   However, the SECNAV guidance specifically states that an Acquisition
   Coordination Team is a team of stakeholders from the acquisition community
   who represents the principal advisors to the milestone decision authority.

   The programs with established Acquisition Coordination Teams use the
   Acquisition Coordination Team reviews during the period leading up to a
   program decision meeting. These reviews help the program manager to ensure
   that all acquisition documentation and other statutory and regulatory requirements
   have been met prior to a program decision meeting with the ASN(RD&A). The
   existence of an Acquisition Coordination Team supports the notion that all
   programmatic issues should be addressed and remedied at the lowest level
   possible, consistent with the Navy Integrated Product Team structure, which will
   also result in an effective procurement process.

   All ACAT IC and II programs should have an established Acquisition
   Coordination Team that specifically addresses program readiness prior to a
   program decision meeting. Although some of the members of Working Integrated
   Product Teams and Integrating Integrated Product Teams may overlap with key
   members of an Acquisition Coordination Team, Navy program officials should
   establish a separate Acquisition Coordination Team as required by the SECNAV
   Instruction.

   Common Link Integration Processing. FAR 15.406-3, “Documenting the
   Negotiation,” states that the contracting officer must document in the contract file
   the principal elements of the negotiated agreement. The Navy uses business
   clearance memorandums to summarize the negotiated agreement.

   During our site visit to the CLIP program office on August 12, 2005, program
   officials stated that CLIP did not have a price negotiation memorandum/business


                                        61
clearance memorandum for the development contract, awarded on June 9, 2005.
In June 2006, we followed up with the contracting officer to request information
on why CLIP did not have a business clearance memorandum. The contracting
officer provided a business clearance memorandum dated June 14, 2006. The
business clearance memorandum states that a verbal clearance was provided by
Space and Naval Warfare Systems Command on June 27, 2005, rather than a
written clearance because the former contracting officer left Government service.
However, the former contracting officer did not resign until August 18, 2005,
almost 2 months after the contract was awarded.




                                    62
Appendix H. Management Comments on
            Findings and Audit Response
   The Deputy Assistant Secretary of the Navy (Management and Budget) provided
   comments on behalf of the ASN(RD&A).

   Management Comments on AN/APG-79 Active Electronically Scanned
   Array Radar System Acquisition Strategy. The Deputy Assistant Secretary of
   the Navy (Management and Budget) stated that the assertion that the approval of
   the AN/APG-79 Active Electronically Scanned Array Radar System’s acquisition
   strategy was caused by an oversight in the NAE approval chain was misleading.
   According to the Deputy Assistant Secretary of the Navy (Management and
   Budget), the ASN(RD&A) directed the program office to make a revision to the
   program involving a fourth LRIP decision at the Milestone C decision review.
   The Deputy Assistant Secretary of the Navy (Management and Budget) stated that
   this decision required the program office to revise the acquisition strategy,
   causing a delay in the formal approval of the acquisition strategy (page 86).

   Audit Response. We revised the report (page 9) to reflect that the delay was
   caused by the ASN(RD&A) decision made during the Milestone C decision
   review.

   Management Comments on Mode 5 Acquisition Strategy. The Deputy
   Assistant Secretary of the Navy (Management and Budget) stated that the
   ASN(RD&A) signed the acquisition strategy 6 months after the acquisition
   decision memorandum for Milestone B because the ASN(RD&A) directed the
   Mode 5 program to make changes to the acquisition strategy during the
   Milestone B decision review. According to the Deputy Assistant Secretary of the
   Navy (Management and Budget), the required changes were made and the
   document was restaffed; however, the document did not need to be resigned due
   to the ASN(RD&A) concurrence with the changes. The Deputy Assistant
   Secretary of the Navy (Management and Budget) also stated that upon
   concurrence with the other signature authorities, the document was then sent to
   ASN(RD&A) for final signature (pages 86-87).

   Audit Response. DoD Instruction 5000.2 requires an approved acquisition
   strategy at the Milestone B review. It does not state that documents changed
   because of a milestone decision are not required to be resigned. If the acquisition
   strategy was not resigned, the ASN(RD&A) would have no way of determining if
   appropriate changes were made.

   Management Comments on Common Link Integration Processing AoA. The
   Deputy Assistant Secretary of the Navy (Management and Budget) agreed that
   SECNAV Instruction 5000.2C requires the AoA for the Common Link
   Integration Processing program to be approved by the NAE, the Chief of Navy
   Operations, or the Commandant of the Marine Corps. However, the Deputy
   Assistant Secretary of the Navy (Management and Budget) cited the SECNAV
   Instruction as stating the PEO has overall responsibility of the AoA. According
   to the Deputy Assistant Secretary of the Navy (Management and Budget), the


                                       63
program office interpreted that level of responsibility as providing adequate
authority for the PEO to approve the AoA (page 87).

Audit Response. Although SECNAV Instruction 5000.2C gives overall
responsibility of the AoA to the PEO, it does not give authority to the PEO to
approve the AoA. According to the Instruction, the Component Acquisition
Executive, the milestone decision authority, the Chief of Naval Operations, or the
Commandant of the Marine Corps has the authority to approve the AoA unless
the milestone decision authority designates that authority to another official, such
as the PEO. Based on our review of the Common Link Integration Processing
program, we found no evidence that the milestone decision authority delegated
the AoA approval to the PEO.

Management Comments on AN/SPY-1D(V) Radar Upgrade. The Deputy
Assistant Secretary of the Navy (Management and Budget) commented that our
statement, “the system is an upgrade to the AN/SPY-1D(V) to improve
performance in adverse environments with natural and electronic
countermeasures” is incorrect. The Deputy Assistant Secretary of the Navy
(Management and Budget) stated that the statement should read “the system is an
upgrade to the AN/SPY-1D to improve performance in adverse natural
environments and in electronic countermeasures” (page 87).

Audit Response. We revised the statement in the audit report (page 60).

Management Comments on SEWIP Human Systems Integration Plan. The
Deputy Assistant Secretary of the Navy (Management and Budget) stated an
independent Human Systems Integration plan, which encompasses the entire
SEWIP program, was completed May 12, 2003, and approved January 31, 2006,
in accordance with the DoD Instruction 5000.2. The Deputy Assistant Secretary
of the Navy (Management and Budget) also stated that the milestone decision
authority approved the acquisition documentation for the SEWIP program on
August 13, 2002, per the “Acquisition Decision Memorandum for the Surface
Electronic Warfare Improvement Program” (page 88).

Audit Response. We agree that a Humans Systems Integration Plan was
completed for the SEWIP program. However, it was approved after both
increments of Block 1A were approved for Milestone C and was not included as
part of the acquisition strategy. DoD Instruction 5000.2 requires the program
manager to have a comprehensive plan for human systems integration early in the
acquisition process to optimize total system performance, minimize total
ownership costs, and ensure that the system is built to accommodate the
characteristics of the user population that will operate, maintain, and support the
system. Because the plan was not approved until after both increments of Block
1A were approved for Milestone C, the plan was not authorized early in the
acquisition process. In addition, during our audit, SEWIP program officials could
not provide the tailoring agreement referenced in the August 13, 2002, acquisition
decision memorandum. Therefore, we could not validate that one was developed
and approved.

Management Comments on AN/AES-1 Airborne Laser Mine Detection
System Operational Assessment Testing. The Deputy Assistant Secretary of


                                     64
the Navy (Management and Budget) stated that the program office agrees that
operational assessment testing had not been conducted on the AN/AES-1
Airborne Laser Mine Detection System prior to the LRIP decision. He stated
further that program office did conduct the testing that was required by the
acquisition decision memorandum for an LRIP decision. The Deputy Assistant
Secretary of the Navy (Management and Budget) stated that a developmental
test-assist was conducted concurrently with Commander, Operational Test and
Evaluation Force and the results documented in a Letter of Observation, as
required by the acquisition decision memorandum (pages 88-89).

Audit Response. DoD Instruction 5000.2 states that entrance into Milestone C
depends, in part, on acceptable performance in development test and evaluation;
operational assessment testing; and acceptable operational supportability. A
developmental test-assist is not a formal phase of operational testing and does not
resolve critical operational issues, nor does it reach conclusions regarding
operational effectiveness and suitability or recommendations regarding fleet
introduction. Therefore, operational assessment testing should have been
preformed.

In addition, the Letter of Observation states that performance upgrades and
modifications are planned for LRIP and must be thoroughly tested to verify
performance; there is no post-mission analysis training for fleet personnel; and
operational requirements document thresholds have been waived for the LRIP
configuration, but not the production units. The Commander, Operational Test
and Evaluation Force stated that performance has slowly improved, and in some
cases, the waived thresholds have been met. However, the extremely limited
number of successful flights makes it difficult to determine the performance or
future potential of the system. The system must show progress toward, and
potential to meet, full operational requirements document thresholds, as well as
mission repeatability, before it will be ready to proceed to operational evaluation.
Programs should not be approved to enter into the production and deployment
phase of the acquisition process until the system has demonstrated, during
operational testing, that it is potentially operationally effective and suitable and
will meet the users needs.

Management Comments on Command, Control, Communications,
Computers, and Intelligence Support Plan Waiver. The Deputy Assistant
Secretary of the Navy (Management and Budget) stated the ORD Consolidation
Letter for OSCAR dated January 29, 2002, along with the series of documents
which it referenced and validated, properly established the requirements for the
OSCAR program. Additionally, he stated that the requirements did not include an
interoperability key performance parameter. The Deputy Assistant Secretary of
the Navy (Management and Budget) stated that the fact that the command,
control, communications, computers, and intelligence support plan waiver was
signed by Deputy Assistant Secretary of the Navy (Command, Control,
Communications, Computers, and Intelligence and Space) instead of by the
ASN(RD&A) does not alter the fundamental validity of the waiver request or
imply that the program should have developed a command, control,
communications, computers, and intelligence support plan (pages 89-90).




                                     65
Audit Response. Although program officials for OSCAR obtained a command,
control, communications, computers, and intelligence support plan waiver from
Deputy Assistant Secretary of the Navy (Command, Control, Communications,
Computers, and Intelligence and Space), the waiver did not have the correct
approval authority and the waiver was based on inappropriate ORDs. DoD
Regulation 5000.2-R, “Mandatory Procedures for Major Defense Acquisition
Programs and Major Automated Information System Acquisition Programs,” June
10, 2001, states that the NAE, with the advice from the appropriate chief
information officer, may waive command, control, communications, computers,
and intelligence support plan preparation if the requirements authority has
previously waived the requirement for an interoperability key performance
parameter in the ORD. The waiver was not approved by the NAE as required by
DoD Regulation 5000.2-R. As a result, the approval authority for the waiver was
invalid.

In addition, the approval of the waiver was based on inappropriate ORDs. In a
Department of the Navy memorandum, March 26, 2003, the Office for Chief of
Naval Operations supported waiving the requirement for an OSCAR command,
control, communications, computers, and intelligence support plan for the
following reasons.

   •   The AV-8B Radar and Night Attack ORDs, which govern the OSCAR
       program, do not include an interoperability key performance parameter.

   •   The AV-8B Radar and Night Attack ORDs do not include an external
       information exchange requirements.

   •   Of the two major components that make up the OSCAR program, the
       mission computer already has a command, control, communication,
       computer and intelligence support plan waiver, and the weapons computer
       has no connection to the communications and information infrastructure.

However, in our review of the Test and Evaluation Master Plan we found that the
OSCAR program is testing requirements found in additional ORDs that are not
listed in the memorandum. Those additional requirements are:

   •   Joint Direct Attack Munition ORD,

   •   ARC-210 ORD, and

   •   AV-8B Targeting Pod Requirements Letter.

Therefore, because the waiver was not properly approved by the NAE and the
memorandum asking for approval does not contain all the requirements for the
OSCAR system, we feel the waiver is not valid. In addition to this audit, DoD IG
Report No. D-2004-109, “Implementation of the DoD Management Control
Program for Navy Acquisition Category II and III Programs,” August 17, 2004,
found that the program sponsor did not develop an ORD for the OSCAR program
as required by DoD Instruction 5000.2.




                                   66
Management Comments on OSCAR-Specific ORD. The Deputy Assistant
Secretary of the Navy (Management and Budget) stated that there are six
requirements documents that collectively define the operational performance
requirement for the OSCAR upgrade. In addition, the Deputy Assistant Secretary
of the Navy (Management and Budget) stated that the ORD Consolidation Letter
for OSCAR, dated January 29, 2002, specifically defined the performance
parameters of the OSCAR upgrade based on the performance requirements
defined in the six ORDs (page 90).

Audit Response. DoD 5000-2R requires that users develop ORDs to illustrate
program thresholds and objectives. These program thresholds and objectives are
measures of effectiveness or performance and minimum acceptable requirements
for the program. We found that the ORD Consolidation Letter only references
two of the ORDs that were mentioned in the comments from the Deputy Assistant
Secretary of the Navy (Management and Budget). Because not all of the ORDs
were referenced in the ORD Consolidation Letter, there is no evidence that the
ORD Consolidation Letter fully defines the operational performance requirement
for the OSCAR upgrade. In addition, a previous report, DoD IG Report No. D-
2004-109, “Implementation of the DoD Management Control Program for Navy
Acquisition Category II and III Programs,” August 17, 2004, states that an ORD
was not prepared or approved for the OSCAR program. Based on the previous
audit and our findings in this report, we believe that the OSCAR program should
have developed an OSCAR-specific ORD.

Management Comments on the MH-60R Multi-Mission Helicopter Test and
Evaluation Master Plan. The Deputy Assistant Secretary of the Navy
(Management and Budget) stated that the MH-60R program had an approved Test
and Evaluation Master Plan, Revision B, that indicated the operational testing
required for the Milestone C. He further stated that the Commander, Operational
Test and Evaluation Force provided the necessary approval to support the aircraft
for full-rate production as tested. In addition, the Test and Evaluation Master
Plan was updated and submitted for approval prior to Milestone C. Revision C of
the Test and Evaluation Master Plan was approved through the Director, Test and
Evaluation and by the milestone decision authority and briefed to Director,
Operational Test and Evaluation staff prior to the milestone. The Deputy
Assistant Secretary of the Navy (Management and Budget) stated that the
Director, Operational Test and Evaluation staff agreed with the scope of follow-
on testing and was in attendance at the milestone review (page 91).

Audit Response. SECNAV Instruction 5000.2C requires the program manager
to submit an approved test and evaluation master plan as part of the full-rate
production decision review. It must be approved by Director, Operational Test
and Evaluation for ACAT IC programs such as MH-60R. The Test and
Evaluation Master Plan, Revision C, was not approved by Director, Operational
Test and Evaluation for ACAT IC programs prior to the full-rate production
decision on March 31, 2006; therefore, the program did not meet the SECNAV
Instruction 5000.2C requirement.

Management Comments on the MH-60R Multi-Mission Helicopter
Operational Assessment Testing. The Deputy Assistant Secretary of the Navy
(Management and Budget) stated that even though the operational assessment was


                                   67
stopped by the program office, the Commander, Operational Test and Evaluation
Force reported the findings of the operational assessment. He also stated that the
program office addressed each of the findings and the plans to correct them. The
Deputy Assistant Secretary of the Navy (Management and Budget) stated that the
NAE approved LRIP II and the resultant acquisition decision memorandum
references the findings from the operational assessment. The acquisition decision
memorandum specifically identifies near-term criteria for the program to meet in
order to proceed to the LRIP III. In June 2003, the Commander, Operational Test
and Evaluation Force changed the policy for reporting on operational assessments
to identify the risk areas of the program (pages 91-92).

Audit Response. DoD Instruction 5000.2 states that entrance into Milestone C
depends on acceptable performance in development, test and evaluation;
operational assessment testing; acceptable operational supportability; and mature
software capability. In March 2002, the ASN(RD&A) approved revised exit
criteria for the MH-60R LRIP II to include completion of Operational Testing II-
A with a finding of potentially operationally effective and potentially
operationally suitable. An operational assessment was conducted from June
through September 2003 to determine the potential operational effectiveness and
potential operational suitability of the MH-60R. The operational assessment was
terminated by the program office prior to completion of the testing due to poor
performance of the radar, electronic support measures, and acoustic subsystems;
software not mature enough for operational testing; and post-mission analysis
training did not ensure proficiency. The NAE approved the program for LRIP II
on December 15, 2003, even though an operational assessment was not completed
as required by the acquisition decision memorandum dated March 14, 2002. In
addition, no justification was included in the acquisition decision memorandum
for proceeding with LRIP without the required operational assessment. Also, a
second operational assessment was conducted from October to December 2004.
The operational assessment report, March 18, 2005, stated that the system did not
meet all threshold values for operational effectiveness and operational suitability
and included a listing of recommendations that, if not addressed, could result in
the failure of operational evaluation testing. However, the NAE approved
LRIP III, in an acquisition decision memorandum dated April 5, 2005.

Programs should not be approved to enter into the production and deployment
phase of the acquisition process until the system has demonstrated during
operational testing that it is potentially operationally effective and suitable and
will meet the users needs. Doing so could result in systems being produced that
will not meet the users’ needs and require additional funds to retrofit the systems
that have already been produced. In addition, approval of milestone decisions
without meeting previously approved exit criteria should be documented in the
acquisition decision memorandum.

Management Comments on Tactical Tomahawk. The Deputy Assistant
Secretary of the Navy (Management and Budget) stated that the report incorrectly
states that the Tactical Tomahawk program does not have an acquisition strategy.
He also stated that the ASN(RD&A) determined that because Tactical Tomahawk
is a product improvement building upon the Block III program, an AoA was not
required for Milestone III. Program conditions had not changed significantly. As



                                     68
a result, the Deputy Assistant Secretary of the Navy (Management and Budget)
does not feel that the document was applicable to the program (pages 92-93).

Audit Response. During our audit, we were not provided a signature page
verifying the ASN(RD&A) approval of the full-rate production Tactical
Tomahawk acquisition strategy. After we issued the draft report, ASN(RD&A)
officials provided us with the full-rate production acquisition strategy, signed on
September 12, 2003, by the ASN(RD&A). We updated the report to reflect that
Tactical Tomahawk has an approved acquisition strategy.(pages 6 & 8)

We do not agree that an AoA is not applicable for Tactical Tomahawk. An AoA
is the evaluation of the operational effectiveness, operational suitability, and
estimated costs of alternative systems to meet a mission capability. The analysis
assesses the advantages and disadvantages of alternative systems being
considered to satisfy a validated need, including the sensitivity of each alternative
to possible changes in key assumptions and variables. Although Tactical
Tomahawk is an upgrade to the previous Tactical Tomahawk blocks, program
officials should have developed an AoA at the conception of the Tactical
Tomahawk program.




                                     69
Appendix I. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Deputy Assistant Secretary of the Navy
   Air Programs
   Acquisition Management
   Command, Control, Communications, Computers, and Intelligence and Space
      Programs
   Integrated Warfare Systems
   Littoral and Mine Warfare Programs
   Management and Budget
Director, Air 1.0 Program Management for Advanced Arresting Gear
   Program Manager, Advanced Arresting Gear
Program Executive Office, Air Antisubmarine Warfare, Assault, and Special Mission
   Programs
   Program Manager, AV-8B Harrier II Open Systems Core Avionics Requirements
   Program Manager, MH-60R Multi-Mission Helicopter
Program Executive Officer, Command, Control, Communications, Computers, and
   Intelligence and Space
   Program Manager, Navy Advanced Extremely High Frequency Multiband Terminal
   Program Manager, Common Link Integration Processing
Program Executive Officer, Integrated Warfare Systems
   Program Manager, AN/SPY-1D(V) Radar Upgrade
   Program Manager, Surface Electronic Warfare Improvement Program
Program Executive Officer, Littoral and Mine Warfare
   Program Manager, Advanced Deployable System
   Program Manager, AN/AES-1 Airborne Laser Mine Detection System
   Program Manager, AN/AQS-20A Sonar Mine Detecting Set




                                          70
Department of the Navy (cont’d)
Program Executive Officer, Strike Weapons and Unmanned Aviation
   Program Manager, Tactical Tomahawk
Program Executive Officer, Tactical Aircraft Programs
   Program Manager, APG-79 Active Electronically Scanned Array Radar System
   Program Manager, Mark XIIA Mode 5 Identification Friend or Foe Upgrade
Naval Inspector General
Auditor General, Department of the Navy

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                        71
Department of the Navy Comments




                    73
74
75
Final Report
 Reference




Deleted




               76
     Final Report
      Reference




     Revised




77
Final Report
 Reference




Revised




               78
79
80
     Final Report
      Reference




     Revised and
     renumbered
     as
     Recommen-
     dation B.3.




81
Final Report
 Reference




Revised and
renumbered
as
Recommen-
dation B.4.




Renumbered
as
Recommen-
dation B.5.




               82
     Final Report
      Reference




     Deleted




83
84
85
Final Report
 Reference




Revised




               86
     Final Report
      Reference




     Page 59




     Revised




87
Final Report
 Reference




Pages 25 &
26




               88
     Final Report
      Reference




     Pages 10 &
     11




89
Final Report
 Reference




Page 12




               90
     Final Report
      Reference




     Pages 26 &
     27




91
92
     Final Report
      Reference




     Revised




93
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Jacqueline L. Wicecarver
Sean A. Davis
James A. Hoyt
Benita L. Holliman
Jennifer L. Jezewski
Joseph S. Dobish
Eric M. Bisignano
Carrie A. Edwards
Sharlann M. Parlanti
Meredith H. Johnson
Jillisa H. Milner
